APPENDIX TABLE OF CONTENTS
Opinion of the Fourth Circuit
(March 18, 2019)
Memorandum Opinion of District Court of
Virginia (January 30, 2018)

la

16a

Order of the Fourth Circuit Denying Petition for
Rehearing (April 15, 2019)
56a
Deposition of Joyce Moody Edwards Ph.D
Relevant Excerpts (September 1, 2017)

57a

Deposition of B. Robert Kreiser Ph.D
Relevant Excerpts (August 29, 2017)

70a

Deposition of Weldon Hill Ph.D
Relevant Excerpts (August 17, 2017)

72a

Deposition of Cortez Dial
Relevant Excerpts (August 11, 2017)

84a

Deposition of Michael Shackleford,
Relevant Excerpts (August 10, 2017)

87a

Deposition of Zoe Spencer
Relevant Excerpts (August 8, 2017)

100a

Deposition of Terone Green
Relevant Excerpts (August 9, 2017)

135a

App.la

OPINION OF THE FOURTH CIRCUIT
(MARCH 18, 2019)
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT.

ZOE SPENCER,
PlaintiffAppellant,
v.
VIRGINIA STATE UNIVERSITY;
KEITH T. MILLER,
Defendants-Appellees.
No. 17-2453
Appeal from the United States District Court for the
Eastern District of Virginia, at Richmond.
Henry E. Hudson, Senior District Judge.
(3:16-cv-00989-HEH-RCY)
Before: WILKINSON, FLOYD,
and RICHARDSON, Circuit Judges.
RICHARDSON, Circuit Judge:
Dr. Zoe Spencer, a sociology professor at Virginia
State University, sued the University under the Equal
Pay Act and Title VII for paying her less than two
male professors, allegedly because she is a woman.
Spencer earned about $70,000 per year—a median
salary when compared to the men who were also full

App.2a

professors in the Department of Sociology, Social
Work, and Criminal Justice. But Spencer's lawsuit
proposes comparing her pay to that of two former
University administrators, Drs. Michael Shackleford
and Cortez Dial, who each earned over $100,000 per
year as professors in other departments. While Spencer
asserts that the difference in pay was due to her sex,
the University provides a different explanation: Shackleford's and Dial's jobs differed from Spencer's and, as
former administrators, their pay was set as a prorated
portion of their previous salaries.
After discovery, the district court granted summary
judgment for the University (and its former president,
Dr. Keith Miller). We affirm. Though Spencer establishes a pay disparity, she fails to present evidence
that creates a genuine issue of material fact that
Shackleford and Dial are appropriate comparators. In
any event, unrebutted evidence shows that the University based Shackleford's and Dial's higher pay on
their prior service as University administrators, not
their sex.1

1 We review the district court's grant of summary judgment de
novo. In re Lipitor (Atorvastatin Calcium) Mktg., Sales Practices
& Prods. Liab. Litig. (No
892 F.3d 624, 645 (4th Cir. 2018).
After considering the evidence and all fair inferences in the
light most favorable to the nonmovant, summary judgment is
appropriate "if the movant shows that there is no genuine
dispute as to any material fact." Fed. R. Civ. P. 56(a). "To survive
summary judgment, 'there must be evidence on which the jury
could reasonably find for the nonmovant.'" Lee v. Town of
Seaboard, 863 F.3d 323, 327 (4th Cir. 2017) (quoting Anderson
v. Liberty Lobby, Inc., 477 U.S. 242, 252 (1986)).

App.3a

I.

Equal Pay Act

Spencer first claims that the disparity between
her salary and her chosen comparators' violates the
Equal Pay Act. The statute forbids the University
(like other employers) from:
Discriminating] . . . between employees on the
basis of sex by paying wages to employees . . . at a
rate less than the rate at which [the employer] pays
wages to employees of the opposite sex . . . for equal
work on jobs the performance of which requires equal
skill, effort, and responsibility, and which are performed
under similar working conditions, except where such
payment is made pursuant to (i) a seniority system;
(ii) a merit system; (iii) a system which measures
earnings by quantity or quality of production; or (iv)
a differential based on any other factor other than
sex. . . .
29 U.S.C. § 206(d)(1). To prove a violation of the
Act, Spencer must make an initial (i.e., prima facie)
showing of three elements: (1) the University paid
higher wages to an employee of the opposite sex who
(2) performed equal work on jobs requiring equal
skill, effort, and responsibility (3) under similar
working conditions. EEOC v. Maryland Ins. Admin.,
879 F.3d 114, 120 (4th Cir. 2018) (citing Corning
Glass Works v. Brennan, 417 U.S. 188, 195 (1974)).
This initial showing permits an inference that a
pay disparity was based on sex discrimination. Maryland Ins. Admin., 879 F.3d at 120. The inference of
discrimination stands even without the support of
any evidence of discriminatory intent. Id. Only once
this inference exists does the burden shift to the

App.4a
employer to show that the pay differential was based
on a factor other than sex. Id.
Spencer's choice of Shackleford and Dial as
comparators establishes the first element of her initial
showing—the existence of a wage differential. By
choosing two of the highest-paid professors at the
University, Spencer ensured that her wages were much
lower. Yet that same decision to pick Shackleford and
Dial precludes her from establishing, as the second
element requires, that she and they performed "equal"
work requiring "equal skill, effort, and responsibility."
Equality under the Act is a demanding threshold
requirement. It requires a comparator to have performed work "virtually identical" (or the apparent
synonym, "substantially equal") to the plaintiffs in
skill, effort, and responsibility. Wheatley v. Wicomico
Cty., 390 F.3d 328, 332-33 (4th Cir. 2004). Similarity,
of work is not enough; the Act explicitly distinguishes
between the work itself (which must be "equal") and
the conditions of work (which need only be "similar").
29 U.S.C. § 206(d)(1); The Act does not provide courts
with a way of evaluating whether distinct work might
have "comparable" value to the work the plaintiff
performed. See Wheatley, 390 F.3d at 333; see also
Sims-Fingers v. City of Indianapolis, 493 F.3d 768,
771 (7th Cir. 2007) (Posner, J.) (explaining that,
when trying to identify "comparable" pay for unequal
work, there are "no good answers that are within the
competence of judges to give"). Instead, the Act's
inference of discrimination may arise only when the
comparator's work is equal to the plaintiffs.
In alleging this necessary equality, a plaintiff
may not rely on broad generalizations at a high level
of abstraction. Wheatley, 390 F.3d at 332. But Spencer

App.5a
attempts just such an impermissibly general comparison. In Spencer's view, all University professors perform equal work because they all perform the same
essential tasks: preparing syllabi and lessons, instructing students, tracking student progress, managing
the classroom, providing feedback, and inputting
grades. See Appellant's Brief at 9. The performance
of these tasks, Spencer posits, requires the same
skills: studying, preparing, presenting, discussing, and
so forth. See id. at 9-10. But these tasks and skills
are shared by middle-school teachers and law-school
professors, pre-algebra teachers and biomedical-engineering professors.
This attempted comparison ultimately relies on
the common title of "professor" plus some generalized
responsibilities (e.g., teaching students). Yet we have
rejected an analogous claim that jobs with the same
title and only vaguely corresponding responsibilities
can be considered equal. In Wheatley we concluded
that the plaintiffs, supervisors in a county's emergencyservices department, failed to meet their burden to
show that supervisors in different departments performed equal work because they could not demonstrate that the different jobs were equal in skill and
responsibility. 390 F.3d at 334; see also Sims-Fingers,
493 F.3d at 771. Spencer's case suffers from a nearidentical flaw.
Spencer's bird's-eye view is particularly unpersuasive given the inherent features of academia. Professors
are not interchangeable like widgets. Various considerations influence the hiring, promotion, and compensation of different professorial jobs. CI: Zahorik v. Cornell
Univ., 729 F.2d 85, 93 (2d Cir. 1984) (discussing the
tenure process). As a result, faculty salary decisions

App.6a

require a complex balancing of factors. Among other
things, those decisions account for the differences in
skill and responsibility attendant to different jobs.
For instance, an engineering professorship requires
different skills, effort, and responsibility than professorships in other fields, such as sociology. Evidence
offered by Spencer proves this very point: The University systematically pays engineering professors more
than humanities professors. J.A. at 136. This reflects
differences in skill along with market forces that
compensate engineers more highly. This market reality
confirms that Spencer's broad generalizations about
tasks and skills, which apply to virtually all teachers,
fail to satisfy her burden to show equal work.
In contrast to Spencer's generalized tasks and
skills, a litany of concrete differences underscore that
Spencer does not perform work equal to that of
Shackleford and Dial. First, Shackleford and Dial
taught in different departments than Spencer did.
While comparisons might be drawn between some
departments, any such comparison requires the plaintiff
to articulate with specificity why the work performed
and skills needed by a professor in one department
are virtually identical—and not just generally related
or of comparable worth—to those in another. As our
precedents recognize, the differences between academic
departments generally involve differences in skill
and responsibility. See Strag v. Bd. of Trustees,
Craven Cmty. Coll., 55 F.3d 943, 950 (4th Cir. 1995)
(finding that the Biology and Mathematics departments
required instructors to have different skills and
responsibilities); Soble v. Univ. of Maryland, 778 F.2d
164, 167 (4th Cir. 1985) (finding that the specialized
nature of certain university departments called for

App.7a

distinct skills); cf. Wheatley, 390 F.3d at 332-33'
(recognizing job-related differences for directors of
different county government departments).
There are still more differences. Along with serving
in different departments, the three professors taught
at different class levels at the University. Spencer
taught mainly undergraduate courses, while Shackleford and Dial taught more graduate courses. And.
Shackleford also supervised doctoral dissertations. Contrary to Spencer's assertion, the fact that the University credited hours spent supervising dissertations in
a similar manner to hours spent teaching regular
courses does nothing to establish the equivalency of
supervising dissertations and teaching undergraduates.
Nor did the professors work equal hours, as the
record shows that Shackleford and Dial worked more
than Spencer did week to week.2
None of this is to say that the Equal Pay Act cannot
apply in the higher-education context. But in that
context—one where the work is an exercise in intellectual creativity that can be judged only according to
intricate, field-specific, and often subjective criteria—
Spencer must provide the court with more than broad
generalities to meet her burden. She must present
evidence on which a jury could rely to decide that
she, Shackleford, and Dial had equal jobs, not just
that they all performed vaguely related tasks using
2 Spencer paradoxically argues that other differences between
her work and that of her chosen comparators render her work
equal. For example, Spencer asserts that she conducted research
and published while Shackleford and Dial did not. This evidence
cannot save her claim given the differences already discussed.
Piling on differences—even those suggesting that Spencer did
better or more work—does nothing to prove equality of work.

App.8a
nominally comparable skills. That is, there must be
evidence showing the jobs were equal in the strict
sense of involving "virtually identical" work, skill,
effort, and responsibility, not in the loose sense of
having some comparative value. Wheatley, 390 F.3d
at 333.
Despite all of these issues, Spencer claims her
expert, Joseph Rosenberg, found "that Shackleford
and Dial were significantly overpaid in comparison to
Spencer." Appellant's Brief at 44 (emphasis added).
Not only is this irrelevant to establishing equal work,
this claim is a bit misleading: Rosenberg asserted
that Shackleford and Dial were overpaid relative to
all other professors, both men and women.3

3 Spencer's brief asserts that Rosenberg:
used four independent variables to account for the
skill, effort, and responsibility required of professors
at [the University], taking into account experience,
departmental affiliation, faculty rank, and whether
the professor was a Chair or Dean. Rosenberg found,
at a 97.5% confidence interval, that Shackleford and
Dial were significantly overpaid in comparison to
Spencer even when accounting for the different departments in which they taught.
Appellant's Brief at 44 (citations and emphasis omitted). Contrary
to Spencer's characterization, Rosenberg's report does not appear
to take departmental affiliation into account, instead only accounting for the broader category of "school," each of which encompasses
several departments. And there is another flaw, though
immaterial given the report's other shortcomings: Rosenberg's
expert report does not account for Spencer's comparators' prior
work in the administration, even though everyone appears to
agree that their prior administrative experience determined
their salaries. Cf Smith v. Virginia Commonwealth Univ., 84
F.3d 672, 675 (4th Cir. 1996) (noting that administrators are gen-

App.9a

In addition to looking at her chosen comparators,
Spencer's expert tried to identify a general disparity
between the pay of men and women at the University.
But his efforts revealed no statistically significant
disparity within each "school." If anything, this evidence undermines Spencer's claimed inference of discrimination. See Strag, 55 F.3d at 950 (suggesting
that "isolated incidents or random comparisons demonstrating disparities in treatment may be insufficient
to draw a prima facie inference of discrimination
without additional evidence that the alleged phenomenon of inequality • also exists with respect to the
entire relevant group of employees" (quoting Houck
v. Virginia Polytechnic Ins., 10 F.3d 204, 206-07 (4th
Cir. 1993)).
Despite her expert's efforts, Spencer's generalized
claims cannot establish that she engaged in equal
work, which categorically dooms her attempt to establish wage discrimination under the Equal Pay Act.
Cf. Wheatley, 390 F.3d at 334 (a plaintiff may not
"indiscriminately aim at all department supervisors
collectively, and then expect to meet the EPA standard"
for equal work).
But even if Spencer could meet her initial burden,
her claim would still fail because the University
established that the salary difference was based on a
"factor other than sex." 29 U.S.C. § 206(d)(1)(iv). As
the defendant, the University bore the burden of
establishing this affirmative defense. Maryland Ins.
Admin., 879 F.3d at 120. Granting summary judgment
on this ground required the district court to find that
erally paid higher salaries than teachers and that these higher
salaries persist when administrators move back to teaching).

App.10a

the proffered reason did in fact explain the wage disparity, not merely that it could. Id. at 121.
Here, there is no dispute that the wage difference
at issue resulted from the University setting Shackleford's and Dial's pay at 75% of their previous salaries
as administrators. In practice, the University generally paid former administrators who became professors
"9/12ths" of their administrator salary. This practice
appears to rest on the theory that professors work
nine months out of the year, while administrators
work year-round. Indeed, Spencer admits that her
comparators' pay during their short stints as University professors was set according to the 9/12ths practice. Appellant's Reply Brief at 16 ("Shackleford and
Dial's salaries were set entirely on their prior salaries
as administrators.").
In response to the University's explanation,
Spencer claims that the 9/12ths practice should not
have been used to calculate Shackleford's and Dial's
salaries. According to her, the University's historical
practice only applied to administrators who were previously tenured faculty. But even if the University
erroneously applied its 9/12ths practice to overpay
Shackleford and Dial, such an imprudent decision would
still serve as a non-sex-based explanation for the pay
disparity. See Anderson v. Westinghouse Savannah
River Co., 406 F.3d 248, 272 (4th Cir. 2005) ("We do
not sit as a 'super-personnel department weighing the
prudence of employment decisions' made by the defendants." (quoting DeJarnette v. Corning, Inc., 133 F.3d
293, 299 (4th Cir. 1998)); Smith v. Univ. of North
Carolina, 632 F.2d 316, 346 (4th Cir. 1980) ("[The] law
does not require, in the first instance, that employment be rational, wise, or well-considered—only

App.11a

that it be nondiscriminatory." (quoting Powell v. Syracuse Univ., 580 F.2d 1150, 1156-57 (2d Cir. 1978)).
The Equal Pay Act is a powerful tool, permitting an
employee to prevail on a wage discrimination claim
with no evidence of intentional discrimination. But
this tool must be tempered by adherence to its
provisions. Doing so requires that the work performed
by the plaintiff and her comparators be equal and
that the wage disparity not be based on a factor other
than sex. Spencer's claim fails on both requirements.
II. Title VII
Having rejected Spencer's Equal Pay Act claim,
we must separately consider her claim of Title VII
sex-based wage discrimination. Under Title VII of the
Civil Rights Act of 1964, an employer cannot "discriminate against any individual with respect to [her]
compensation . . . because of such individual's . . . sex."
42 U.S.C. § 2000e-2(a)(1). Title VII, in contrast to the
Equal Pay Act, requires establishing intentional discrimination. A Title VII plaintiff may make this
showing of intentional discrimination using direct or
circumstantial evidence. Alternatively, the plaintiff
may use the burden-shifting framework of McDonnell
Douglas Corp. v. Green, 411 U.S. 792 (1973), "to
develop an inferential case" of discriminatory intent.
Chalmers v. Tulon Co. of Richmond, 101 F.3d 1012,
1017 (4th Cir. 1996).
A prima facie pay-disparity case under McDonnell
Douglas requires a plaintiff to establish (1) she is a
member of a protected class, (2) she was performing
her job satisfactorily, (3) an adverse employment
action occurred, and (4) the circumstances suggest an
unlawfully discriminatory motive. See McDonnell

App.12a

Douglas, 411 U.S. at 802; Texas Dep't of Cmty. Affairs
v. Burdine, 450 U.S. 248, 253 (1981). Where, as here,
the prima facie case of wage discrimination is based
on comparators, the plaintiff must show that she is
paid less than men in similar jobs. See Brinkley- Obu
v. Hughes Training, Inc., 36 F.3d 336, 343 (4th Cir.
1994).
Title VII requires the compared jobs to be only
"similar" rather than "equal," as required under the
Equal Pay Act. See id. While there is no bright-line
rule for what makes two jobs "similar" under Title
VII, courts consider "whether the employees (i) held
the same job description, (ii) were subject to the same
standards, (iii) were subordinate to the same supervisor,
and (iv) had comparable experience, education, and
other qualifications—provided the employer considered
these latter factors in making the personnel decision."
Bio v. Fed. Express Corp., 424 F.3d 593, 597 (7th Cir.
2005) (internal quotation marks omitted); see also
Herster v. Bd of Supervisors of Louisiana State Univ.,
887 F.3d 177, 185 (5th Cir. 2018) (stating that a
"variety of factors are considered when determining
whether a comparator is similarly situated, including
job responsibility, experience, and qualifications.").
While Title VII's "similarity" requirement demands
less of plaintiffs than the Equal Pay Act's "equality"
requirement, it is not toothless: the plaintiff must
provide evidence that the proposed comparators are
not just similar in some respects, but "similarlysituated in all respects." Mitchell v. Toledo Hosp.,
964 F.2d 577, 583 (6th Cir. 1992). For the same reasons
we discussed above, Spencer's broad generalizations

App.13a

cannot even show sufficient similarity to meet her
burden under Title VII.4
Even if we concluded that Spencer had established
a prima facie case of Title VII wage discrimination,
her case still could not withstand summary judgment.
Once a plaintiff establishes a prima facie case, the
burden of production shifts to the employer to proffer
a legitimate, nondiscriminatory explanation for the
wage disparity. Guessous v. Fairview Prop. Investments, LLC, 828 F.3d 208, 216-17 (4th Cir. 2016);
Maryland Ins. Admin., 879 F.3d at 120 n.7. Here, the
University satisfies this requirement through its
practice of paying administrators 9/12ths of their
previous salary. Just as this practice satisfies the
Equal Pay Act's "factor other than sex" affirmative
defense, it qualifies as a legitimate, nondiscriminatory
explanation under Title VII. Cf. Cty. of Washington
v. Gunther, 452 U.S. 161, 169 (1981) (recognizing
that the Bennett Amendment to Title VII incorporates
the four affirmative defenses from the Equal Pay Act).
Having proffered a nondiscriminatory explanation,
the University shifts the burden back to Spencer to
prove that the explanation is merely pretextual for
invidious discrimination. Guessous, 828 F.3d at 216.
Spencer cannot supply any evidence of this. Since the
touchstone of discrimination is treating two groups
differently based on characteristics only one possesses,
it is vital for Spencer to provide evidence that the

4 Just as in the Equal Pay Act context, Spencer's expert does
not help her to establish a prima facie case here. While a plaintiff may use statistics to suggest a discriminatory motive,
Spencer's expert found no statistical evidence that the University paid women less than men.

App.14a
University has used the 9/12ths policy to pay men
more than women. Instead, Spencer merely argues
that the University misapplied the 9/12ths policy to
Shackleford and Dial. But again, even if the University
"erroneously or even purposely misapplied the . . .
policy, it is not proof of unlawful discrimination." Dugan
v. Albemarle Cty. Sch. Bd., 293 F.3d 716, 722 (4th
Cir. 2002).
As a final note, Spencer also alleges that the
University, and its former provost, engaged in unlawful
retaliation because of her complaints about pay disparities. As the district court noted, the facts supporting most of these allegations are exceedingly
weak, and the allegations themselves are mostly conclusory. See Spencer v. Virginia State Univ., No.
3:16-cv-989, 2018 WL 627558, at *1447 (E.D. Va. Jan.
30, 2018). Even if Spencer's characterization of the
behavior is accurate, Spencer offers insufficient evidence that each action was both material and undertaken because of her complaints about salary equity.
See Burlington N & Santa Fe Ry. Co. v. White, 548
U.S. 53, 68 (2006) (holding that "a plaintiff must
show that a reasonable employee would have found the
challenged action materially adverse . . . [meaning] it
might have 'dissuaded a reasonable worker from
making or supporting a charge of discrimination"').
That is not to say no one harbored animus toward
Spencer, but a personal conflict alone does not constitute retaliation. CI: Hawkins v. PepsiCo, Inc., 203
F.3d 274, 281 (4th Cir. 2000) ("But Hawkins presents
no facts that tend to show this allegedly disparate
treatment was due to race rather than Price's admittedly low regard for Hawkins' individual performance."). Because the district court correctly found

App.15a

that Spencer cannot establish a prima facie case of
retaliation, we do not address the merits of the University's defenses.
Accordingly, the judgment of the district court is

AFFIRMED.

App.16a

MEMORANDUM OPINION
OF DISTRICT COURT OF VIRGINIA
(JANUARY 30, 2018)
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Richmond Division
ZOE SPENCER,
Plaintiff;
v.
VIRGINIA STATE UNIVERSITY, ET AL.,
Defendants.
Civil Action No. 3:16cv989—HEH
Before: Henry E. HUDSON, United States District
Judge.
Plaintiff Dr. Zoe Spencer ("Plaintiff) filed this
suit against Defendant Virginia State University
("VSU") and Defendant Dr. Keith T. Miller ("Dr. Miller")
(collectively "Defendants"), alleging that Defendants
violated the Equal Pay Act, 29 U.S.C. § 206(d), et
seq., and Title VII of the Civil Rights Act of 1964, 42
U.S.C. § 2000e, et seq., in the course of various employment actions taken against Plaintiff. (2d Am.
Compel., ECF No. 44.) This matter is now before the
Court on Defendants' Motion for Summary Judgment
(ECF No. 74), filed on October 24, 2017.

App.17a

All parties filed memoranda supporting their
respective positions. (ECF Nos. 76-78.) The Court
dispensed with oral argument because the facts and
legal contentions were adequately presented in the
materials before it, and oral argument would not have
aided in the decisional process. E.D. Va. Local Civ. R.
7(J). On November 28, 2017, the Court issued an order
granting Defendants' motion and dismissing Plaintiffs
action with prejudice (ECF No. 87), and further
identified that the Court would subsequently file a
memorandum opinion explaining its reasoning. This
reasoning is set forth below.
I. Background
At the outset, the Court notes that Plaintiffs
Memorandum in Opposition to Defendants' Motion for
Summary Judgment ("Memorandum in Opposition,"
ECF No. 77) fails to include a specifically captioned
section listing all material facts as to which she contends are genuinely in dispute, as required by ED.
Va. Loc. Civ. R. 56(B)1 and consistent with Fed. R.
1 Local Rule 56(B) provides:
Each brief in support of a motion for summary judgment shall include a specifically captioned section
listing all material facts as to which the moving
party contends there is no genuine issue and citing
the parts of the record relied on to support the listed
facts as alleged to be undisputed. A brief in response
to such a motion shall include a specifically captioned
section listing all material facts as to which it is
contended that there exists a genuine issue necessary to be litigated and citing the parts of the record
relied on to support the facts alleged to be in dispute.
In determining a motion for summary judgment, the
Court may assume that facts identified by the moving
party in its listing of material facts are admitted,

App.18a

Civ. P. 56(c)(1). Instead, Plaintiff has set forth her
own version of the material facts without identifying
the facts among those cited by the Defendants that
she disputes. Under the Local Rules, a court in this
situation may accept those facts identified by the
movant as undisputed to be admitted, as well as
assume admitted those facts not disputed by reference
to the record. E.D. Va. Loc. Civ. R. 56(B); see JDS
Uniphase Corp. v. Jennings, 473 F.Supp.2d 705, 707
(E.D. Va. 2007). Despite Plaintiff's failure to comply
with the plain language of Local Rule 56, the Court
has made a reasonable effort to discern which material
facts are genuinely disputed by examining the citations
to the record in Plaintiffs Memorandum in Opposition.
Where appropriate, however, the Court reserves the
right to consider Defendants' statement of facts as
undisputed, as permitted by the Local Rules and Fed.
R. Civ. P. 56(e).
The Court has concluded that the following factual
recitation represents the undisputed material facts
for the purpose of resolving the summary judgment
motion:
VSU is organized into six colleges, which are further divided into various departments. (Palm Decal.
¶ 12, ECF No. 76-1; Kanu Decl. ¶ 5, ECF No. 76-2.)
Two of the six colleges are the College of Education
and the College of Humanities and Social Sciences.
(Palm Decl. ¶ 12.)

unless such a fact is controverted in the statement of
genuine issues filed in opposition to the motion.
E.D. Va. Loc. Civ. R. 56(B) (emphasis added).

App.19a

The College of Education focuses on the preparation of educational professionals. (Corley Decl.
¶ 4, ECF No. 76-3.) It is divided into five
departments, including the Department of Educational
Leadership, which is a combination of the former
Department of Administrative and Organizational
Leadership and the Department of Doctoral Studies.
(Id. ¶ 6.) The Department of Educational Leadership's
senior-level preparation program aims to teach students
how to lead a school that is both effective and efficient.
7.) Further, the department's doctoral program
allows as many as twelve graduate-level students to
pursue a Doctorate in Educational Administration and
Supervision. (Id.)
The College of Humanities and Social Services is
divided into nine departments, two of which are the
Department of Sociology and Criminal Justice
("Sociology") and the Department of Mass Communications and Communications Services ("Mass Communications"). (Kanu Decl. ¶¶ 5-6, 8.) The Department
of Sociology contains both bachelor's and master's
degree programs. (Id. ¶ 7.) The Department of Mass
Communications allows students to specialize in
several areas, including public relations. It offers a
Bachelor of Arts in Mass Communications, which
requires all students to complete an internship in a
professional setting. (Id. ¶ 9.) Further, the Department
of Mass Communications promotes the professional
expertise of its faculty and staff in numerous areas
including public relations. (Id. ¶ 11.)
Plaintiff earned her master's degree in Social
Work in 1992 and earned her Ph.D. in Sociology in
2005, both from Howard University. (2d Am. Compl.
¶ 37.) She began as an Assistant Professor in the

App.20a

Sociology Department at VSU in 2008 before she was
promoted to Associate Professor in 2010 and granted
tenure in 2013. (Id. ¶ 38; Spencer Dep. 115:8-10, ECF
No. 77-10.) In the fall of 2013, VSU allowed Plaintiff
to teach in China for a semester, during which time
she received her regular salary and a $10,000 stipend.
(Spencer Dep. 313:19-315:2; 2d Am. Compel. ¶ 101.)
Provost Weldon Hill was among the individuals at VSU
that signed off on both Plaintiff's tenure and her
request to teach abroad. (Spencer Dep. 115:11-20,
314:15-315:2.) Plaintiff was promoted to Full Professor
in 2017. (Id. at 213:10-12.)
From 2011 to 2013, Plaintiff's salary was $68,500
per academic year. (2d Am. Compel. ¶ 50.) Plaintiffs
salary increased to $70,040 from 2013 to 2016. (Id.)
Her current salary as a full professor is $71,441. (Id)
Amongst the salaries for the other full professors in
the Sociology Department, Plaintiffs salary is the
same as that of one male professor, higher than those
of one male and one female professor, and lower than
those of one male and one female professor. (Spencer
Dep. 218:11-219:4.) During her time as an Associate
Professor, Plaintiffs salary similarly fell in the
middle of the salaries of her colleagues at the same
rank. (Kanu Dec11 13.)
Throughout her tenure at VSU, Plaintiff has
taught several different undergraduate courses in the
Sociology Department, such as Sociology of Marriage
and Family, Social Psychology, and Contemporary Hip
Hop and the Prison Industrial Complex, and one
graduate-level course. (2d. Am. Compl. ¶¶ 41-45.)
Plaintiff estimates that she works approximately thirty
hours per week. (Spencer Dep. 52:2-9.) Plaintiff has

App.21a

never served in an administrative capacity either at
VSU or any other entity. (Id. at 240:1-2.)
In 2014, VSU denied Plaintiff's request for her
salary to be raised to the pay-level of Colonel Cortez
Dial and Dr. Michael Shackleford. (Hill Dep. 267:17269:4.) VSU made this decision after determining that
Plaintiffs salary was in the middle of those similarly
ranked professors within her department. (Id.) Dr.
Joyce Edwards, the chair of Plaintiffs department,
recommended that Plaintiff receive a salary increase.
(Edwards Dep. 164:21-165:16.) However, Dr. Edwards
acknowledged that the denial was likely due to VSU's
concern that increasing Plaintiffs salary would lead
to a domino effect amongst all faculty members at
the associate professor rank. (Id.)
Dial's educational background includes a Bachelor
of Science degree in Communication Science from
Northern Illinois University in 1974, a Master of
Science degree in Education from University of
Southern California in 1978, a MBA from Webster
University in 1985, and a Doctorate in Education from
VSU in 2013. (Dial Dep. 14:8-13, 164:21-165:15; Exs.
1-4, ECF No. 76-6.) Dial joined the Army in 1974, and
during his service he held several different positions in
public affairs and personnel. (Id. at 47:1-6; Def. Supp.
Resp. 1st Int. 1115, ECF No. 76-7.) He was promoted
to full colonel in 1997 before ultimately retiring in
2003. (Dial Dep. 47:7-8, 132:16-18.)
Following Dial's retirement from the Army, VSU
hired him as Director of Residence Life. (Id at 21:811.) In 2004, Dial began serving as VSU's Chief of
Staff, and he held that position until June 2014. (Id.
at Ex. 6.) As Chief of Staff, Dial fulfilled several
administrative and supervisory roles under the direc-

App.22a

tion of VSU's president. (Def. Supp. Resp. 1st Int. ¶ 8.)
During his time as Chief of Staff, Dial also taught
several courses at VSU such as an undergraduate
course in mass communications and a graduate-level
course titled Crisis Communications. (Dial Dep. 160:14, 160:22-162:3.) In the summer of 2013, Dial informed
the President of VSU that he intended to step down
as Chief of Staff to pursue teaching opportunities.
(Id. at 170:6-12.)
After Dial announced his interest in teaching,
the Chair of the Mass Communications Department,
Dr. Ishmail Conway, approached him and said "We'd
really like you to stay here for one more year at
least." (Id.. at 170:13-22.) Ultimately, Dial accepted a
position as a term-appointed Associate Professor in
the Mass Communications Department. (Id. at 170:614, 192:15-18; Kanu Decal. ¶ 14.) The position came
with a nine-month contract that paid $105,446, which
was 75% of the twelve-month salary he received as
Chief of Staff. (Def. Supp. Resp. 1st Int. ¶ 6.) From
2016 to 2017, his salary increased to $107,556. (2d
Am. Compl. ¶ 67.) Dial's salary as a term appointment
exceeded the salaries of many tenured faculty at VSU,
male and female, and it was higher than that of all
other faculty within the Sociology Department. (Kanu
Decl. ¶ 14.)
From 2014 to 2017, Dial taught six semesters of
courses at both the undergraduate and graduate levels,
such as Crisis Communications, Graduate Media
Internship, Media Management, and Special Topics in
Media. (2d Am. Compl. VI 60-63.) Dial also performed
tasks such as advising students and assisting student
groups, promoting the Mass Communications Department to Army Logistics University at Fort Lee, working

App.23a

with the NCO academy at Fort Lee, and serving as
the coordinator of the Mass Communications Department Internship Program. (Dial Dep. 186:19-189:4;
Def. Supp. Resp. 1st Int. ¶ 20.) In this capacity, he
helped create an internship with Minor League Baseball, and further developed, maintained, and reviewed
internship sites. (Dial Dep. 189:1-2; Def. Supp. Resp.
1st Int. ¶ 20.) Dial left the faculty at the end of the
2017 academic year. (Dial Dep. 237:12-18.)
Shackleford's educational background includes a
bachelor's degree in Business Administration from
VSU in 1972, a MBA from Florida Institute of Technology in 1977, and a Doctorate in Education from
George Washington University in 2003, which included
completing a dissertation on the "Impact of Remedial
Math on Retention and Graduation Rates at an HBCU."
(Shackleford Dep. 13:9-15, 16:8-9, ECF No. 77-11.)
Shackleford served in several leadership positions in
the Army prior to retiring in 1996. (Id. at 33:16-35:9,
55:5-11.)
Following his retirement from the Army, Shackleford joined VSU as Executive Director of Enrollment
Management where he worked to grow enrollment
through recruitment and retention. (Id. at 55:1-4, 19:
9-14.) In 2004, Shackleford became the Associate Vice
President for Student Affairs and Enrollment Management and later the Vice President for Student Affairs
and Enrollment Management. (Id at 36:22-37:11.) In
that position, Shackleford oversaw several components
of the VSU administration including the division
related to Judicial Affairs/ Student Conduct, Residence
Life, Student Counseling, and Student Organization/Greek Life. (Def. Supp. Resp. 1st Int. ¶ 14.)

App.24a

In early 2014, Shackleford indicated that he
wanted to pursue teaching or work in another capacity
at VSU. (Shackleford Dep. 113:16-199:8.) Defendant
Dr. Miller, then-president of VSU,2 approached Shackleford about remaining at VSU in order to help
change the student culture. (Id. at 115:3-116:4.) Ultimately, Shackleford accepted a position as a termappointed Associate Professor in Doctoral Studies for
the 2014-2015 school year. (Shackleford Dep. 123:1124:2, 184:3-12; Hill Dep. 88:8-20, ECF No. 77-8.)
The position came with a nine-month contract that
paid $119,738, which was 75% of the twelve-month
salary he received in his administrative position.
(Shackleford Dep., Ex. 9, ECF No. 76-9; Hill Dep.
114:17-115:18.) Shackleford's salary as term-appointed
Associate Professor in Doctoral Studies exceeded that
of many tenured faculty at VSU, both male and female.
(Corley Decal. ¶ 8.)
Shackleford taught students at the graduate level,
specifically in the education administration doctoral
program. (Shackleford Dep. 124:16-126:2, 188:18-21.)
One of his primary tasks was to reduce the backlog of
doctoral students that had formed due to understaffmg.
(Id. at 125:3-7.) In this capacity, he helped steward
doctoral students through the dissertation phase of
their degree, which involved helping with selecting
dissertation topics, planning the collection of research
data, and providing feedback and guidance to assist
with completion of the students' dissertation defense.
(Id at 188:19-21.) Additionally, he served as the cocoordinator for the College of Education Internship
2 Dr. Miller served as President of VSU from July 2010 to December 2014. (Palm Decl. ¶ 9.)

App.25a

Program and as a recruitment officer for the Department of Doctoral Studies, which involved making presentations at schools across the state. (Id. at 184:312; 217:13-21; Def. Supp. Resp. 1st Int. ¶ 21.) Given
these various commitments, Shackleford's typical day
ran from 9 a.m. to 10 p.m. and often required
working seven-day weeks. (Shackleford Dep. 147:2-16.)
The procedures followed in hiring both Dial and
Shackleford deviated from the procedure typically
utilized by VSU, but VSU had a practice of prorating
the salary of an administrator to a nine-month salary
when that administrator moved to the faculty. (Hill
Dep. 80:1-4, 115:1-6, 140:9-22; see also Mem. Opp.
Sum. J. ¶ 19.) VSU utilized a "simple arithmetic calculation" in setting the salaries of Shackleford and Dial
as Associate Professors at 75% of their prior salaries
as administrators. (Hill Dep. 272:9-15, 277:8-11.) Further, Provost Hill believed that this practice was
followed by institutions of higher education across the
Commonwealth. (Def. Supp. Resp. 1st Int. ¶ 6.) A
regression analysis performed by Dr. Joseph I. Rosenberg found that both comparators were paid more than
their similarly situated peers—both male and female.
(Rosenberg Dep. 79:10-21, ECF No. 76-10.) Further,
Dr. Rosenberg's analysis did not show pay disparity at
a "statistically significant level of males over females
by school." (Id. at 183:13-184:10.)
In addition to her claims of an illegal pay disparity,
Plaintiff claims that Defendants took actions that
constituted retaliation in violation of the EPA and
Title VII. Plaintiff presented the VSU administration
with a report on gender-based pay inequity at VSU
in April 2012 and further gave a copy of the report to
VSU Board Member Terone Green in November 2012.

App.26a

(Spencer Dep. 254:19-255:15.) Following Plaintiffs
presentation, the VSU administration took various
steps to further investigate and resolve the concerns
highlighted by the report, including allotting over
$450,000 for pay increases. (Hill Dep. 182:19-183:4,
185:10-15.)
The majority of the alleged materially adverse
employment actions involve VSU's Provost, Weldon
Hill. (See generally 2d Am. Compl.) Plaintiff alleges
that in May 2012 "Provost Hill intentionally delayed
signing [Plaintiffs]'s paperwork for her Summer School
pay." (2d Am. Compel. ¶ 92.) The delay was caused
by Plaintiffs department chair missing a submission
deadline due to inadvertently overlooking an email.
(Hill Dep. 195:17-19.) In an attempt to accommodate
Plaintiff and expedite her receipt of payment, the
President of VSU suspended electronic deposit for
everybody so that paper checks could be picked up.
(Hill Dep. 196:3-5.)
Plaintiff alleges that in December 2012, "Provost
Weldon Hill refused to sign [Plaintiffs time sheet in a
manner that would have afforded her the opportunity
to be paid in time for the holiday break." (2d Am.
Compel. ¶ 93.) In response to a board member inquiring
about this delay, Provost Hill made derogatory comments about Plaintiff. (Green Dep. 100:10-101:15, ECF
No. 77-13.) In the past, Hill had signed paperwork
preferentially. (Edwards Dep. 139:7-11, ECF No. 779.) VSU and Hill also had a general culture of retaliation if you got on their bad side. (Id. at 183:1-5.) A
lengthy email exchange identifies that the initial
delay in Plaintiffs payment was due to her department chair, Joyce Edwards, not realizing that a form
requiring her signature was attached to an email.

App.27a
(Green Dep., Ex. 3 at 8-17.) Plaintiff experienced a "consistent problem" with receiving her payments throughout her time at VSU. (Id. at 11.) At various points
throughout the email exchange, it is unclear which
corresponding party actually had Plaintiffs payment
paperwork. (Id.; Spencer Dep. 262:15-263:1.) Provost
Hill arranged a meeting with the parties involved in
the exchange in order to address the payment delay
issue. (Green Dep., Ex. 3 at 8-9.)
Plaintiff alleges that the VSU Provost's Office
encouraged a student to file a complaint against
Plaintiff with the Office of Civil Rights (OCR) and then
failed to support Plaintiff through the OCR investigation. (2d Am. Compl. 1 98-99.) Plaintiff stated "I
just assume" when asked how she knew that Provost
Hill was behind the student filing the complaint.
(Spencer Dep. 304:5-8.) Provost Hill was instrumental
in the student being able to participate in commencement exercises despite not having the requisite credit
hours to graduate. (Id. at 306:7-312:21.)
Plaintiff alleges that Provost Hill referred to her
as a "troublemaker" and made a veiled threat against
her, saying: "A wise person taught me a long, long
time ago, that, 'If you get dragged into a game you do
not wish to play, then play the end-game."' (2d Am.
Compel. ¶¶ 90, 94-97.) Plaintiff was told that Provost
Hill called her a "troublemaker" but never personally
heard him do so. The moniker was, however, used
jokingly by her colleagues in the VSU faculty. (Spencer
Dep. 264:15-265:8; Edwards Dep. 80:3-6.) The statement
Plaintiff believed to be a veiled threat was utilized
frequently by Provost Hill as a colloquialism for "just
tell me what it is you want. I'm not going to play the
game leading up to it." (Hill Dep. 239:2-6.)

App.28a

Plaintiff contends that Defendants denied her
request for a salary adjustment to the pay-level of
Dial and Shackleford in September 2014. (2d Am.
Compl. ¶¶ 103-111.)
Plaintiff also claims that Defendants failed to
bar a student from taking Plaintiffs classes or take
any action in response to a threat assessment Plaintiff
submitted against a stalking student in August 2015.
(2d Am. Compl. ¶ 117.) Upon receiving Plaintiffs information about the threat assessment, VSU forwarded
it to the police. (Spencer Dep. 336:18-337:11.) The Vice
Provost suggested that the class be taught by somebody
other than Plaintiff, and Dr. Joyce Edwards ultimately
taught the class. (Edwards Dep. 181:2-7.) Plaintiff
did not request that VSU remove the student from
her class in order to allow her to teach it nor did she
request that VSU take any further action with respect
to that student. (Id. at 180:17-181:18.)
Plaintiff further maintains that she was slated
to give a speech during freshman orientation in January
2016, but Defendants removed her name from the list.
(2d Am. Compl. ¶ 118.) Plaintiff states that certain
unidentified students told her that the VSU administration took her off a list of speakers. (Spencer Dep.
355:4-358:20; Edwards Dep. 70:11-72:6.)
II. Standard of Review
The standard of review for summary judgment
motions is well settled in the Fourth Circuit. Pursuant
to Rule 56(c) of the Federal Rules of Civil Procedure,
summary judgment is appropriate "if the pleadings,
depositions, answers to interrogatories, and admissions
on file, together with the affidavits, if any, show that
there is no genuine issue as to any material fact and

App.29a

that the moving party is entitled to judgment as a
matter of law." Anderson v. Liberty Lobby, Inc., 411
U.S. 242, 247 (1986); Fed. R. Civ. P. 56(c). The relevant
inquiry in a summary judgment analysis is "whether
the evidence presents a sufficient disagreement to require submission to a jury or whether it is so onesided that one party must prevail as a matter of law."
Anderson, 411 U.S. at 251-52. In reviewing a motion
for summary judgment, the court must view the facts
in the light most favorable to the nonmoving party.
Id at 255.
Once a motion for summary judgment is properly
made and supported, the opposing party has the burden
of showing that a genuine dispute exists. Matsushita.
Elec. Indus. Co. v. Zenith Radio Corp., 475 U.S. 574,
586-87 (1986). "[T]he mere existence of some alleged
factual dispute between the parties will not defeat an
otherwise properly supported motion for summary
judgment; the requirement is that there be no genuine
issue of material fact." Anderson, 477 U.S. at 247-48.
Indeed, summary judgment must be granted if the
nonmoving party "fails to make a showing sufficient
to establish the existence of an element essential to
that party's case and on which that party will bear
the burden of proof at trial." Celotex Corp. v. Catrett,
477 U.S. 317, 322 (1986).
To defeat an otherwise properly supported motion
for summary judgment, the nonmoving party must rely
on more than conclusory allegations, "mere speculation," the "building of one inference upon another,"
the "mere existence of a scintilla of evidence," or the
appearance of "some metaphysical doubt" concerning
a material fact. Lewis v. City of Va. Beach Sheriffs
Office, 409 F. Supp. 2d 696, 704 (E.D. Va. 2006) (cita-

App.30a

tions omitted). The court cannot weigh the evidence
or make credibility determinations in its summary
judgment analysis. Williams v. Staples, Inc., 372 F.3d
662, 667 (4th Cir. 2004).
In analyzing motions for summary judgment, it
is important to keep in mind that a material fact, is
one that might affect the outcome of a party's case.
Anderson, 477 U.S. at 248; JKC Holding Co. LLC v.
Wash. Sports Ventures, Inc., 264 F.3d 459, 465 (4th
Cir. 2001). Whether a fact is considered to be "material"
is determined by the substantive law, and "[olnly disputes over facts that might affect the outcome of the
suit under the governing law will properly preclude the
entry of summary judgment." Anderson, 477 U.S. at
248; see also Hooven-Lewis v. Caldera, 249 F.3d 259,
265 (4th Cir. 2001). A "genuine" issue concerning a
material fact only arises when the evidence, viewed
in the light most favorable to the nonmoving party, is
sufficient to allow a reasonable jury to return a
verdict in that party's favor. Anderson, 477 U.S. at
248.
III. Discussion
A. Plaintiffs Wage Discrimination Claim under
the EPA
1. Legal Framework
The EPA prohibits employers from discriminating
on the basis of sex "by paying wages to employees . . . at
a rate less than the rate at which he pays wages to
employees of the opposite sex . . . for equal work on
jobs the performance of which requires equal skill,
effort, and responsibility, and which are performed

App.31a

under similar working conditions." 29 U.S.C. § 206(d)
(1).
To establish a prima facie case of wage discrimination under the EPA, a plaintiff bears the burden of
showing: "(1) that her employer has paid different
wages to employees of opposite sexes; (2) that said
employees hold jobs that require equal skill, effort,
and responsibility; and (3) that such jobs are performed under similar working conditions." Brinkley v.
Harbour Recreation Club, 180 F.3d 598, 613 (4th Cir.
1999) (citing Corning Glass Works v. Brennan, 417
U.S. 188, 195 (1974)), overruled on other grounds by
Desert Palace v. Costa, 539 U.S. 90 (2003). This disparity is typically shown by a "factor-by-factor" comparison to a specific male comparator. Houck v. Va. Polytechnic Inset. and State Univ., 10 F.3d 204, 206 (4th
Cir. 1993).
A proper comparator for EPA purposes performs
work "substantially equal" to that of the plaintiff.
Wheatley v. Wicomoco City., 390 F.3d 328, 332 (4th
Cir. 2004) (citations and internal quotation marks
omitted). Though "application of the [EPA] is not
restricted to identical work," Brennan v. Prince William
Hosp. corp., 503 F.2d 282, 291 (4th Cir. 1974), "the
jobs involved should be virtually identical, that is
. . . very much alike or closely related to each other."
Wheatley, 390 F.3d at 333 (quoting Brennan v. City
Stores, Inc., 479 F.2d 235, 238 (5th Cir. 1973)
(emphasis added and internal quotation marks omitted)). This requires more than a mere showing that
the plaintiff and the putative comparator share the
same job title. Wheatley, 390 F.3d at 332. The analysis turns on whether the jobs to be compared share a
"common core" of tasks. Hassman v. Valley Motors,

App.32a

Inc., 790 F. Supp. 564, 567 (D. Md. 1992) (cited for
this proposition with approval in Dibble v. Regents of
Univ. of Md. Sys., 1996 WL 350019, at *3 (4th Cir.
1996) (unpublished opinion)).
However, "jobs do not automatically involve equal
effort or responsibility even if they 'entail most of the
same routine duties"' Wheatley, 390 F.3d at 333
(quoting Hodgson v. Fairmont Supply Co., 454 F.2d
490, 493 (4th Cir. 1972)). The Fourth Circuit has expressly declined to hold that jobs entail substantially
equal work merely because the positions share similar
titles and generalized responsibilities. Id. at 334.
"Skill" for EPA purposes includes "such factors as experience, training, education, and ability." 29 C.F.R.
§ 1620.15(a); see also Hassman, 790 F. Supp. at 56768. Even jobs that do share a common core of tasks
may be considered unequal if the more highly paid
job involves additional tasks requiring extra effort or
time or contributes "economic value commensurate
with the pay differential." Hodgson, 454 F.2d at 493
(quoting Hodgson v. Brookhaven Gen. Hosp., 436 F.2d
719, 725 (5th Cir. 1970)).
If a plaintiff successfully establishes a prima
facie case of wage discrimination, the burden of
production and persuasion shift to the defendant to
prove by a preponderance of the evidence that the
wage disparity was caused by an enumerated statutory
defense. Brinkley-Obu v. Hughes Training, 36 F.3d
336, 344 (4th Cir. 1994). These affirmative defenses
include: "(i) a seniority system; (ii) a merit system;
(iii) a system which measures earnings by quantity
or quality of production; or (iv) a differential based on
any other factor other than sex" 29 U.S.C. § 206(d)(1).
Should the defendant prove one of these defenses,

App.33a

"the plaintiff's claim must fail unless plaintiff can
satisfactorily rebut the defendant's evidence." Strag
v. Bd. of Trustees, 55 F.3d 943, 948 (4th Cir. 1995).
2. Analysis
Even viewing the record in the light most favorable
to Plaintiff, she has failed to establish a prima facie
violation under the EPA. Plaintiff, a tenured Associate
Professor in the Department of Sociology, asserts
that Dial, a term-appointed Associate Professor in
the Department of Mass Communications, and Shackleford, a term-appointed Associate Professor in the
Department of Educational Leadership, are proper
comparators for her EPA claim. While the positions
held by Plaintiff and Dial are housed in different
departments within the College of Humanities and
Social Services, Shackleford's position is in both a
different department and a different college—the
College of Education. Notwithstanding the differences
in both department and college, Plaintiff contends
that she and the two alleged comparators all shared
the same routine tasks. In support of this contention,
Plaintiff identifies various shared duties, including
"preparing] syllabi which reflect course objectives . . .
manag[ing] classroom dynamics . . . [and] providing]
feedback on assignments." (Mem. Opp. Mot. Sum. J.
13.)
Defendants argue that Plaintiff has failed to
establish a prima facie case, because she does not
identify appropriate comparators. Specifically, Defendants contend that the Dial and Shackleford taught
different subjects in different departments, which
entailed distinctive skill, effort and responsibility, and
that Plaintiffs attempts at comparison are overly

App.34a

generalized. Defendants also argue that Dial and
Shackleford performed additional duties through their
respective roles with internships and the doctoral
program.
At the outset, the Court notes that differences in
departmental affiliation between Plaintiff and the
two VSU employees she identifies does not, as a
matter law, prevent those employees from being proper
comparators. However, the Fourth Circuit has considered differences in departmental affiliation, despite
equality of rank, as a factor weighing against a
finding that jobs require equal skill, effort, and responsibility. See Strag, 55 F.3d 943; Soble v. University
of Maryland, 778 F.2d 164 (4th Cir. 1985). The reasoning behind consideration of this factor is that "different
departments in universities require distinctive skills
that foreclose any definitive comparison for purposes
of the Equal Pay Act." Strag, 55 F.3d at 950 (citing
Soble, 778 F.2d 164). Indeed, "rare would be the case
where a university professor can demonstrate that a
professor from a different department is a valid EPA
comparator." Earl v. Norfolk State Univ., No. 2:13cv148, 2016 U.S. Dist. ALEXIS 35171, at *1445 (E.D.
Va. Mar. 17, 2016).
Further, the EPA requires more than merely
examining job duties at a high level of generality. See
Wheatley, 390 F.3d at 333. In Wheatley, plaintiff, a
department head, provided as a comparator the head
of another department and asserted that the two
positions shared the same supervisory duties such as
"prepar[ingj] budgets, monitoring] employees, and
conduct[ing] meetings." Id. at 332. The Fourth Circuit,
in affirming the district court's ruling that plaintiff
did not identify proper comparators, noted that "the

App.35a

EPA demands more than a comparison of job functions
from a bird's eye view." Id. at 333.
Rather than provide the Court with evidence that
Dial's and Shackleford's positions were functionally
equal to hers in spite of the departmental differences,
Plaintiff rests on the same type of overly generalized
depiction of shared duties that the Fourth Circuit
counseled against in Wheatley. 390 F.3d at 333.
Accepting such a broad formulation would turn the
exception into the rule, rendering nearly every professor
in a university as an appropriate comparator for EPA
purposes, and stand in stark contrast to Fourth Circuit
precedent. Strag, 55 F.3d 943; Soble, 778 F.2d 164.
Moreover, the record in this case makes clear that
the functions performed and the skills required in
the positions held by Dial and Shackleford varied
significantly from those of Plaintiff. Dial possesses a
bachelor's degree in Communication Science, a MBA,
and both a master's degree and a doctoral degree in
Education. His professional background outside of
academia includes nearly thirty years in the Army,
where he held several different public relations positions and achieved the rank of Full Colonel, and
nearly ten years in the VSU administration as the
Director of Residence Life and Chief of Staff. The
Department of Mass Communications, which Dial
joined, emphasizes professional experience and touts
its faculty as having professional expertise in numerous
areas including public relations. Dial's extensive professional background enhanced his credentials and
contributed to his performance of his day-to-day job
responsibilities, including promoting the department
to the various institutions at Fort Lee. A requirement
for one of the department's degrees was completion of

App.36a
an internship, and Dial served as the coordinator of
the department's internship program—a position that
required him to develop, maintain and review internship sites.
Shackleford possesses a bachelor's degree in
Business Administration, a MBA, and a doctoral degree
in Education, which included a dissertation on the
impact of remedial math at HBCU's. Shackleford's
professional background included several years in the
Army, where he served in multiple leadership positions,
and also various positions within the VSU administration, including Executive Director of Enrollment
Management and Vice President for Student Affairs
and Enrollment Management. The Department of
Educational Leadership, which Shackleford joined,
focuses on providing students with the skills necessary
to efficiently and effectively assume administrative
responsibilities. He similarly maintained a significant
role in the department's internship program. Shackleford only taught graduate-level courses within the
department's doctoral program, which allows students to earn a Doctorate of Education in Educational Administration and Supervision. His position
required him to spend significant time assisting
students in the dissertation phase of their doctorate.
Plaintiff does not suggest that she has served in the
administration of a university or that she has an extensive relevant professional background outside academia, nor does she suggest that her position included
a significant role with internships or the supervision
of students' dissertations. Plaintiff instead directs the
Court's attention to portions of the record that
suggest overseeing internships and doctoral programs
is the "same as teaching a class." (Mem. Opp. Sum. J.

App.37a

TT 32-33; see Dial Dep. 199:18-200:8; Shackleford
Dep. 132:9-133:3.) While Plaintiff successfully demonstrates that such duties were not additional to the
comparators' generic responsibilities as associate
professors, she fails to grasp a significant distinction.
When the positions are examined at a lesser degree
of abstraction, the functional responsibilities that
comprised "teaching a class" and the skillset required
in doing so varied across all three departments.3 See
Wheatley, 390 F.3d at 334 ("[D]eclin[ing] to hold that
having a similar title plus similar generalized
responsibilities is equivalent to having equal skills
and equal responsibilities.").
Finally, the regression analysis performed by Dr.
Joseph I. Rosenberg, Plaintiffs own expert, makes
clear that VSU did not suffer from systemic, genderrelated wage disparity. While the lack of systemic
discrimination, standing alone, may not be sufficient
to disprove an EPA violation, the Fourth Circuit has
found the "absence of systemic discrimination . . .
combined with . . . improper identification of a male
3 Plaintiff produces a significant record detailing how the hiring
of Shackleford and Dial deviated from the procedures used in
hiring most faculty members. She also contends that Dial and
Shackleford did not meet the qualifications required for their
respective positions. However, the EPA does not empower
courts to assess the virtue of every personnel decision, only
whether such decision was made in a discriminatory fashion.
See Anderson v. Westinghouse Savannah River Co., 406 F.3d
248, 272 (4th Cir. 2005) ("[Courts] do not sit as a super-personnel department weighing the prudence of employment decisions
made by defendants." (citations and internal quotation marks
omitted)). The Court's inquiry focuses on comparing the jobs
held by Dial and Shackleford to that held by Plaintiff, not
assessing the wisdom of VSU's decision to hire Dial and
Shackleford into those positions.

App.38a

comparator" suggests a failure to establish a prima
facie case. Strag, 55 F.3d at 950. Dr. Rosenberg found
that both "comparators" were overpaid in comparison
to their peers, but, importantly, he also found that
those peers included both male and female faculty
members. Further, Dr. Rosenberg stated that his
analysis did not show a "statistically significant
level" of male faculty at VSU being paid more than
their female counterparts by school. This comports
with the fact that, in comparison to faculty of equal
rank within her own department, Plaintiff's salary is
the same as that of one male professor, higher than
those of one male and one female professor, and lower
than those of one male and one female professor.
Based upon the foregoing information, the Court
finds that Plaintiff has failed to establish a prima
facie case under the EPA.
Even if Plaintiff could establish a prima facie
case under the EPA, Defendants have successfully
identified a compelling "factor other than sex" defense within the meaning of 29 U.S.C. § 206(d)(1).
The record is clear that VSU utilized a "simple
arithmetic calculation" in setting the salaries of
Shackleford and Dial as Associate Professors at 75%
of their prior salaries as administrators. Moreover,
VSU had previously applied this calculation to other
administrators it moved to academic faculty positions.
Plaintiff does not dispute these facts nor does she
contend that she previously held an administrative
position that would entitle her to a similar salary
calculation.4 Instead, she asserts that prior salary
4 Plaintiff attempts to cabin the practice to "retreat rights" whereby an administrator can return to a previously held faculty
position without losing the administrative salary. She argues

App.39a

alone cannot justify a pay disparity under the EPA.
This Court's research yields no Fourth Circuit authority
supporting Plaintiff s contention.
While some courts do require that an employer
hiring a new employee point to business reasons that
"reasonably explain" the use of prior salary, see, e.g.,
Irby v. Bittick, 44 F.3d 949,955-56 (11th Cir. 1995),
other courts such as the Seventh Circuit have found
that an employer moving an employee to another
position may properly consider that employee's previous
salary set by the same employer unless such a policy
is applied in a discriminatory fashion or independent
evidence establishes that the employer discriminates
on the basis of sex when doing so. See Covington v. S.
Ill. Univ., 816 F.2d 317,322-23 (7th Cir. 1987); Earl,
2016 U.S. Dist. LEXIS 35171, at *7; Grove v. Frostburg
Nat'l Bank, 549 F. Supp. 922, 937 (D. Md. 1982).
In a situation such as this case, where the
defendant seeks to hire a current employee to a new
position while retaining the employee's previous salary
that VSU did not have a policy of transitioning non-renewed
administrators that did not previously have tenure to faculty
positions at their administrative salary level. However, Plaintiff
does not dispute that Provost Hill believed he was following
past practice of VSU and the norm in higher education across
the Commonwealth in transitioning Dial and Shackleford to
faculty positions nor does she argue that Provost Hill knowingly
misapplied the salary-retention policy. Therefore, even accepting
Plaintiffs characterization of the practice as true, the unnecessary application of the practice impacts the wisdom of the business decision, not its validity under the EPA. See Smith v.
Univ. of NBC., 632 F.2d 316, 346 (4th Cir. 1980) ("[T]he law
does not require, in the first instance, that employment be
rational, wise, or well-considered—only that it be nondiscriminatory." (internal citations omitted)).

App.40a

level, the Court believes that the approach taken by
the Seventh Circuit is appropriate. And, while a facially
gender-neutral compensation practice such as this
still has the potential to be applied in a discriminatory
manner, Defendants clearly did not do so here. In
contrast to Dial and Shackleford, Plaintiff never held
an administrative position, and therefore Defendants
could not have set her salary as a percentage of a
prior administrative salary. Therefore, because the
alleged comparators' salaries were set using their
prior salary set by Defendant VSU and there is no
indication that the practice was used to discriminate,
the Court finds that Defendants have successfully
established a credible "factor other than sex" justification.
Even applying the more restrictive approach,
Defendants still satisfy the "factor other than sex"
requirement because they identify business reasons
that "reasonably explain" using the comparators' prior
salary. Namely, Defendants cite portions of the record
that make clear Provost Hill set the comparators'
salaries not only based upon VSU's past practice of
transitioning administrators to faculty positions, but
also based upon the practice of institutions of higher
education across the Commonwealth. For these reasons,
the Defendants have successfully established an affirmative defense to Plaintiff's EPA claim.5
Based upon Plaintiffs failure to establish a prima
facie case and Defendants' ability to successfully
establish an affirmative defense in the event that a
5 Plaintiff does not argue and the record does not show that the
use of the comparators' prior salaries was a pretext to discriminate.

App.41a

prima facie case was found, the Court dismissed
Plaintiffs EPA claims, found in Counts I and III of
her Second Amended Complaint.
B. Plaintiffs Wage Discrimination Claim Under
Title VII
1. Legal Framework
Title VII of the Civil Rights Act of 1964 makes it
unlawful for an employer "to fail or refuse to hire or
to discharge any individual, or otherwise to discriminate
against any individual with respect to his compensation,
terms, conditions, or privileges of employment, because
of such individual's . . . sex." 42 USC § 2000e-2(a)(1).
In examining Title VII claims, courts employ a burdenshifting scheme whereby a plaintiff first bears the
burden of establishing a prima facie case, then the
defendant bears the burden of presenting a legitimate,
non-discriminatory reason for its employment action,
and finally the plaintiff bears the burden of showing
that the explanation proffered by the defendant was
merely a pretext. See McDonnell Douglas Corp. v.
Green, 411 U.S. 792, 802 (1973); Taylor v. Virginia
Union Univ., 193 F.3d 219, 230 (4th Cir. 1999).
The sex discrimination provisions of Title VII
and the EPA are construed in harmony. Williams v.
Cerberonics, Inc., 871 F.2d 452, 455 (4th Cir. 1989).
A wage discrimination claim under Title VII can be
proved through direct or circumstantial evidence.
Brinkley- Obu, 36 F.3d at 343. Under the circumstantial
evidence framework, a plaintiff may establish a prima
facie case of disparate treatment by demonstrating
that: "she is female, i.e., a member of a protected
class, and that the job she occupied was similar to

App.42a

higher paying jobs occupied by males." Id. (citing
Miranda v. B & B Cash Grocery Store, Inc., 975 F.2d
1518, 1526 (11th Cir. 1992)). The Fourth Circuit has
suggested that a Title VII disparate treatment claim
employs a "relaxed standard of similarity between
male and female-occupied jobs" in comparison to an
EPA claim. Id. However, a plaintiff in a Title VII
claim bears the additional "burden of proving an intent
to discriminate on the basis of sex." Id.
Should a plaintiff successfully state a prima
facie case, the burden of production shifts to the
defendant to show that the employment decision was
made for a non-discriminatory reason. Hill v. Lockheed
Martin Logistics Mgmt., 354 F.3d 277, 285 (4th Cir.
2004). The affirmative defenses provided for under
the EPA, see supra pp. 15-16, are incorporated into
Title VII. 42 U.S.C. § 2000e-2(h); City. of Wash. v.
Gunther, 452 U.S. 161, 168 (1981); see McDougalWilson v. Goodyear tire & Rubber Co., 427 F. Supp.
2d 595, 604 (E.D.N.C. 2006). In the event that the
defendant successfully establishes an affirmative defense, the plaintiff can only prevail by showing that
the defendant's proffered explanation was mere pretext and "that the defendant was actually motivated by
discriminatory intent." Brinkley-Obu, 36 F.3d at 344.
2. Analysis
Much like her EPA claim, Plaintiffs Title VII
claim evolves froth the 2014 appointment of Dial and
Shackleford to the faculty at greater salaries than
her own and VSU's subsequent denial of her salary
increase request in the same year. (2d Am. Compel.
133-37.) For the reasons described above in relation
to her EPA claim, Plaintiff has failed to identify

App.43a

appropriate comparators that would allow the Court
to determine that she received less pay than men in
similar positions.
Even applying a "relaxed standard of similarity"
to Plaintiffs Title VII claim and accepting Dial and
Shackleford as appropriate comparators, she has still
failed to carry her burden of showing a discriminatory
intent. Plaintiffs reliance on derogatory comments
that Provost Hill made about her well over a year
prior and in a context unrelated to her request for a
pay raise is unavailing. See Hill, 354 F.3d at 286
(noting that "statements . . . unrelated to the decisional
process itself [do not] suffice to satisfy the plaintiffs
burden of proving discrimination" (internal quotations
omitted)). Plaintiff also cites the fact that Provost
Hill had received her report on gender-related pay
disparity at VSU when he set Dial and Shackleford's
salaries. However, this merely suggests that Provost
Hill did not follow the recommendations made in
Plaintiffs report. Lastly, Plaintiff directs the Court to
the opinion of Dr. Joyce Edwards that Provost Hill
was vindictive to both men and women, but more so
to women.6 This generalized opinion, to the extent
that it is admissible, is insufficient to establish that
Provost Hill acted with a discriminatory intent in
denying Plaintiff's request for a salary increase.
6 Dr. Edward's testimony also identifies sexist comments that
Provost Hill allegedly made to three unidentified male colleagues
in the context of Dr. Edwards becoming a department chair.
(Edwards Dep. 61:17-63:7.) Not only were these statements
made more than two years prior and in a context unrelated to
the decisional process, they are also inadmissible hearsay that the
Court cannot consider. Greensboro Profi Fire Fighters Ass
Local 3157 v. City of Greensboro, 64 F.3d 962, 967 (4th Cir. 1995).

App.44a

Plaintiff asks the Court to draw inferences from evidence that is either unrelated or irrelevant to the employment decision at issue. Plaintiff has simply failed
to demonstrate a prima facie claim of a discriminatory intent.
Notwithstanding Plaintiffs failure to carry her
initial burden, the undisputed record would be more
than sufficient to rebut a prima facie case. As identified
above with regard to Plaintiffs EPA claim, Defendants
successfully established "factor[s] other than sex"
that justify their actions. Those factors include the
use of a sex neutral equation to set the comparators'
salaries at 75% of their previous administrative salary,
VSU and the other institutions of higher education in
the Commonwealth following this established salaryretention practice, and the comparators' vast professional experience and contributions as associate
professors.
Dr. Edwards, who personally recommended that
Plaintiff receive a salary increase, also acknowledged
that the denial was due to VSU's concern that granting
an increase in Plaintiff's case would lead to a domino
effect amongst all faculty members of that rank. VSU
denied Plaintiffs request for a salary increase after
determining that Plaintiffs salary was squarely in
the middle of similarly ranked faculty—both male and
female—within her department. The VSU administration took steps to remedy the concerns raised by
Plaintiff's report on gender-related pay disparity by
allocating over $450,000 for pay increases. Moreover, in
the two years preceding Plaintiffs request for a
salary increase, Provost Hill, whom Plaintiff relies on
to show intentional discrimination, approved both
Plaintiffs request to spend a semester teaching in

App.45a

China while receiving her regular salary and a $10,000
stipend and Plaintiffs request for tenure.
This context shows that Defendant had a valid,
non-discriminatory reason for its decision, and it
undermines Plaintiffs contentions to the contrary.
Further, Plaintiff has failed to make any credible
showing of pretext in rebuttal. Accordingly, Plaintiffs
Title VII claim found in Count IV of her Second
Amended Complaint was dismissed.
C. Plaintiffs Retaliation Claim Under the EPA
and Title VII
1. Legal Framework
"The antiretaliation provision [of the EPA] seeks
to secure [the] primary objective [of promoting a
workplace where individuals are not discriminated
against because of their sex] by preventing an
employer from interfering (through retaliation) with
an employee's efforts to secure or advance enforcement
of the Act's basic guarantees." Burlington Northern
& Santa Fe Ry. Co. v. White, 548 U.S. 53, 63 (2006).
To properly state a retaliation claim under the EPA
and Title VII, a plaintiff is required to show: (1) that
she engaged in a protected activity; (2) that Defendants
took some adverse employment action against her; and
(3) that a causal connection existed between the protected activity and the adverse action.? Holland v.
Washington Homes, Inc., 487 F.3d 208, 218 (4th Cir.
7 The Court observes that the same standard is utilized for
assessing both EPA and Title WI retaliation claims. See
Kennedy v. Va. Polytechnic Inst. & State Univ., 781 F. Supp. 2d
297, 303 (W.D. Va. 2011); Harrison v. Frincipi, Civil Action No.
3:03-1398, 2005 WL 4074516, at *7 (D. S.C. Aug. 31, 2005).

App.46a

2007); Williams v. Cerberonics, 871 F.2d 452, 457
(4th Cir. 1989) (citing Ross v. Commc'ns Satellite
Corp., 759 F.2d 355, 365 (4th Cir. 1985)). Much like
with a wage discrimination claim under Title VII,
once a plaintiff establishes a prima facie case the
burden shifts to the defendant to "proffer evidence of
a legitimate, nondiscriminatory reason for taking the
adverse employment action." Spriggs v. Diamond Auto
Glass, 242 F.3d 179, 190 (4th Cir. 2001).
For a plaintiff to establish that she engaged in a
protected activity in satisfaction of the first element,
she must show that she "has filed any complaint or
instituted or caused to be instituted any proceeding
under or related to" the EPA. 29 U.S.C. § 215(a)(3).
The Fourth Circuit has noted that the term protected
activity "encompasses utilizing informal grievance
procedures as well as staging informal protests and
voicing one's opinions in order to bring attention to
an employer's discriminatory activities." Laughlin v.
Metro. Wash. Airports Auth., 149 F.3d 253, 259 (4th
Cir. 1998).
With regard to the second element, the Supreme
Court has held that a materially adverse employment
action is one that "well might have dissuaded a reasonable worker from making or supporting a charge of
discrimination." Id (quoting Rochon v. Gonzales, 438
F.3d 1211, 1219 (D.C. Cir. 2006) (citations and
internal quotation marks omitted)).
A materially adverse employment action does not
include—and the law cannot immunize an employee
from—"those petty slights or minor annoyances that
often take place at work and that all employees experience." Id Courts must conduct a fact-specific
analysis in each case to determine whether an em-

App.47a

ployer's actions would have deterred a reasonable
employee from seeking protection under the EPA. See
Oncale v. Sundowner Offshore Servs., Inc., 523 U.S.
75, 81-82 (1998) ("The real social impact of workplace
behavior often depends on a constellation of surroundding circumstances, expectations, and relationships
which are not fully captured by a simple recitation of
the words used or the physical acts performed."); see
also Burlington Northern, 548 U.S. at 69 ("[A] legal
standard that speaks in general terms rather than
specific prohibited acts is preferable, for an 'act that
would be immaterial in some situations is material in
others"' (quoting Washington v. Illinois Dept. of
Revenue, 420 F.3d 658, 661 (7th Cir. 2005)).
So, for example, "[a] schedule change in an
employee's work schedule may make little difference
to many workers, but may matter enormously to a
young mother with school-age children." Burlington
Northern, 548 U.S. at 69 (citing Washington, 420 F.3d
at 662 (finding that a "flex-time" schedule was critical
to an employee with a disabled child)). Similarly, "[a]
supervisor's refusal to invite an employee to lunch is
normally trivial, a nonactionable petty slight. But to
retaliate by excluding an employee from a weekly
training lunch that contributes significantly to the
employee's professional advancement might well deter
a reasonable employee from complaining about discrimination." Id.
In order to satisfy the third and final element of
a retaliation claim, a plaintiff must plausibly allege
that her employer took a materially adverse employment action 'because the plaintiff engaged in a protected activity." Dowe v. Total Action Against Poverty
in Roanoke Valley, 145 F.3d 653, 657 (4th Cir. 1998).

App.48a

Stated succinctly, a plaintiff must plead a plausible
causal connection between the first and second elements.
In the absence of direct evidence, temporal
proximity between the protected activity and the
adverse employment action can give rise to an inference
of causation. See Lettieri v. Equant Inc., 478 F.3d
640, 650 (4th Cir. 2007). The Fourth Circuit has
suggested that a two-and-a-half month gap between
the protected activity and the adverse employment
action may be sufficient to weaken an inference of
causation based on temporal proximity alone. King v.
Rumsfeld, 328 F.3d 145, 151 n.5 (4th Cir. 2003); see
also Clark Cty. Sch. Dist. v. Breeden, 532 U.S. 268,
273 (2001) ("The cases that accept mere temporal
proximity between an employer's knowledge of protected activity and an adverse employment action as
sufficient evidence of causality to establish a prima
facie case uniformly hold that the temporal proximity
must be very close." (internal quotation marks and
citation omitted)); Dowe, 145 F.3d at 657 ("A lengthy
time lapse between the employer becoming aware of
the protected activity and the alleged adverse employment action . . . negates any inference that a causal
connection exists between the two."). In the absence
of close temporal proximity, other evidence of "retaliatory animus" from the intervening period may be
used to prove causation. Lettieri, 478 F.3d at 650.
2. Analysis
At the outset, the Court notes that Plaintiff provides limited citations to the record in support of her
retaliation claims. The Court is not inclined to scour
the record in search of facts that Plaintiff could

App.49a

potentially cite to dispute Defendants' stated record.
Plaintiff rests her retaliation claims "on the cited evidentiary materials." (Mem. Opp. Sum. J. 30.) In line
with Federal Rule of Civil Procedure 56 and Plaintiffs own averments, the Court will confine its analysis to the record cited. On that record, the Court
finds that Plaintiff has failed to state a prima facie
claim of retaliation.
The record shows that Plaintiff engaged in two
instances of protected activity that could potentially
serve as the basis for a retaliation claim: she presented
the VSU administration with a report on gender equity
at VSU in April 2012, and she gave a copy of the report
to VSU Board Member Terone Green in November
2012.8
With these instances of protected activity in
mind, the Court turns to the second element. Plaintiff
identifies seven incidents of alleged retaliation;9 however, it is unclear from her Complaint or Memorandum in Opposition whether she contends that each
incident is a discrete materially adverse employment
action or merely evidence of a pervasive retaliatory

8 Plaintiff's Memorandum in Opposition identifies two additional instances of protected activity—the April 2015 filing of a
complaint before the Equal Employment Opportunity Commission and the May 2015 filing of her initial EPA complaint. The
Court need not consider these instances of protected activity
because, as seen below, no materially adverse employment
actions occurred after 2014.
9 To the extent that Plaintiff's Complaint identifies other
incidents not addressed here, Plaintiff has failed to identify for
the Court any evidence that would support her claims that such
incidents occurred.

App.50a

animus necessary to prove causation. Each of these
incidents is addressed below.
Hill's Intentional Delay Signing
Paperwork for Summer School Pay in
May of 2012
Although a delay in payment could, in the abstract,
constitute an action that would dissuade a reasonable
employee from challenging a discriminatory action,
Plaintiff does not direct the Court to any evidence
establishing that the delay was intentional or at all
attributable to the VSU administration or Provost
Hill. Moreover, the record establishes that the delay
was caused by the chair of Plaintiffs department
inadvertently missing a submission deadline. The
president of VSU suspended electronic deposit for the
entire faculty in an attempt to accommodate Plaintiff.
Thus, there is no evidence that the delay was either
intentional or caused by Provost Hill and the VSU
administration as Plaintiff alleged.
Hill's Intentional Delay Signing
Paperwork for Overload Pay in December
of 2012
In support' of Plaintiffs speculation that Provost
Hill was responsible for this delay in payment, she
directs the Court to: 1) contemporaneous, derogatory
comments made by Provost Hill about Plaintiff; 2)
testimony that Hill signed paperwork preferentially;
and 3) testimony that Hill and VSU had a general
culture of retaliation.
The lengthy email exchange between various
parties in the VSU bureaucracy attempting to resolve
Plaintiffs payment issue makes clear that the initial

App.51a

delay in Plaintiffs payment was attributable to Plaintiffs department chair again inadvertently failing to
timely submit the required paperwork. This email
exchange also shows that Provost Hill arranged a
meeting in early January 2013 to address the delinquent payments with the relevant parties. For her
part, Plaintiffs own testimony confirms that it was
unclear which corresponding party actually had her
paperwork. Moreover, Plaintiffs own email in the exchange reveals that timely receipt of payments was a
"consistent problem" she experienced in multiple
semesters at VSU predating her asserted protected
activity.
Plaintiff therefore does not identify any evidence
showing that Provost Hill or the VSU administration
intentionally delayed signing her paperwork in retaliation for her actions. Instead, she urges the Court to
craft a mosaic of inferences to reach such a conclusion. The record evidence clearly reveals that the
initial delay in Plaintiffs payment was inadvertent
and attempts to take corrective action were unfortunately unavailing. The Court does not discount the
frustration that this incident caused, but the retaliation provisions of the EPA and Title VII do not
immunize an employee from every inconvenience that
she may experience in the course of her employment.
Again, the record is devoid of any factual basis to
attribute such delay to gender-based animus.
c. VSU's Failure to Assist Plaintiff With
a Formal Discrimination Complaint in
May 2013
Plaintiff fails to identify any evidence demonstrating that the VSU administration was responsible

App.52a

for a student filing a formal discrimination claim
against her with the Office of Civil Rights ("OCR") or
that the degree of support she received from VSU
during the ensuing investigation differed from that
given to similarly-situated faculty members. She
attempts to link Provost Hill to the OCR complaint
through his subsequent granting of an accommodation
for the student who made the complaint, which allowed
that student to participate in graduation proceedings.
However, Plaintiffs own testimony confirms that she
"just assume[d]" somebody in the Provost office was
responsible for the complaint. Such assumptions fall
short of the mark.
Hill's Communications With Plaintiff
Plaintiff was told that Provost Hill called her a
"troublemaker" but never heard him do so. Plaintiffs
colleagues, however, jokingly referred to her by the
term. Additionally, Provost Hill explained that a
comment Plaintiff regarded as a veiled threat was
actually a colloquialism he frequently used to say
"just tell me what it is you want. I'm not going to
play the game leading up to it." The Court is hesitant
to conclude that a reasonable employee would be discouraged from challenging discriminatory conduct
based on these statements. Moreover, Plaintiff does
not direct the Court to any portion of the record that
shows a causal connection between these statements
and any protected activity.
VSU's Denial of Plaintiffs Salary
Increase in September of 2014
Based on the record at hand pertaining to Plaintiffs
EPA and Title VII claims, it is clear that the denial of

App.53a

Plaintiffs request for salary adjustment constituted
a materially adverse employment action. Plaintiff,
however, fails to show that the denial was causally
connected to any form of protected activity.
The denial of Plaintiffs salary increase occurred
nearly two years after Plaintiff last engaged in protected activity. Therefore, the temporal proximity
between Plaintiff's protected activity and the denial
of the salary increase is insufficient to produce an
inference of causation on its own. Thus, Plaintiff
must rely on additional evidence of a "retaliatory
animus." The incidents described above, even when
aggregated, do not rise to that level. In Lettieri, a
female employee complained to her human resources
department about gender discrimination by her superiors. 478 F.3d at 650-51. Following this, the plaintiff
was relieved of her job responsibilities, divested of
control over the sales team, and prohibited from
setting prices and meeting directly with important
clients. Id The Fourth Circuit concluded that "[t]hese
intervening events—which occurred regularly after
Lettieri's complaint and can reasonably be viewed as
exhibiting retaliatory animus on the part of [defendantd—are sufficient to show a causal link between
Lettieri's complaint and her termination." Id. at 651.
The immediate case at hand is easily distinguishable.
Here, three of the incidents Plaintiff identifies—
the two delayed payments and the OCR complaint—
were either not attributable to Defendants, resolved
expeditiously, or both, and therefore cannot establish
a retaliatory animus. The "troublemaker" comment and
the email sent by Provost Hill that Plaintiff viewed
as a veiled threat at best represent a strained personal

App.54a

relationship that is similarly insufficient to show
retaliatory animus.
Even if these incidents were sufficient to support
an inference of retaliation, Defendants have identified
a non-discriminatory reason for denying this salary
increase that would be sufficient to rebut a resulting
prima facie case. As described above with regard to
Plaintiffs EPA and Title VII claims, Shackleford and
Dial were retained at 75% of their administrative
salaries based upon Provost Hill's understanding of
VSU's practice and the general practice of institutions
of higher education within the Commonwealth of
Virginia. Plaintiff had no administrative history that
would allow for a similar calculation.
VSU's Failure to Address Plaintiffs
Concerns About a Troubled Student in
August of 2015
After receiving Plaintiffs threat assessment of a
troubled student, VSU forwarded the information to
the campus police. In addition, the VSU administration
suggested that another faculty member teach the class
with the troubled student. Ultimately, the chair of
Plaintiffs department taught the class, and Plaintiff
did not request that VSU take any further action.
The record does not show anything adverse to Plaintiff
stemming from VSU's handling of this situation.
VSU's Prevention of Plaintiff Giving
a Freshman Orientation Speech in
January of 2016.
Plaintiff states that certain unidentified students
told her that the VSU administration took her off a
list of speakers for freshman orientation. The Court

App.55a

cannot consider these inadmissible statements in ruling
on summary judgment since the declarants were
neither identified nor subject to examination. Greensboro Prof? Fire Fighters, 64 F.3d at 967. Consequently, Plaintiff has failed to establish that she suffered
any arguable adverse employment action in January
2016, let alone a material one.
Because these incidents do not rise to the level of
actionable retaliation, either individually or collectively, Plaintiff's retaliation claims in Counts II and
V of her Second Amended Complaint were dismissed
for lack of evidentiary support.
IV. Conclusion
Based on the foregoing, Defendants' Motion for
Summary Judgment (ECF No. 74) was granted as to all
counts.
The Clerk is DIRECTED to send a copy of this
Memorandum Opinion to all counsel of record.

/s/ Henry E. Hudson
United States District Judge

Date: Jan. 30, 2018
Richmond, VA

App.56a

ORDER OF THE FOURTH CIRCUIT DENYING
PETITION FOR REHEARING
(APRIL 15, 2019)
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

ZOE SPENCER,

Plaintifi:Appellant,
v.
VIRGINIA STATE UNIVERSITY;
KEITH T. MILLER,

Defendants-Appellees.
No. 17-2453
(3:16-cy-00989-HEH-RCY)
The court denies the petition for rehearing and
rehearing en banc. No judge requested a poll under
Fed. R. App. P. 35 on the petition for rehearing en banc.
Entered at the direction of the panel: Judge
Wilkinson, Judge Floyd, and Judge Richardson.

For the Court
/s/ Patricia S. Connor
Clerk

App.57a

DEPOSITION OF JOYCE MOODY EDWARDS
PH.D—RELEVANT EXCERPTS
(SEPTEMBER 1, 2017)
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
RICHMOND DIVISION
ZOE SPENCER,
Plaintiff;
v.
VIRGINIA STATE UNIVERSITY, ET AL,
Defendants.
Civil Action No. 3:16-cv-00989-HEH
[Transcript Excerpts; P. 26]
MR. ROBINSON: Objection.
A. Shackleford's—Michael Shackleford was removed
as vice president of student affairs, and the
provost then put him in another department.
Q. Do you know of any other instances of that
happening, where the president will call up the
provost and the provost in turn will suggest a
candidate for the department?
MR. ROBINSON: Objection.
A. Yes.

App.58a

Q. Okay. What was that case?
A. Cortez Dial.
Q. What happened there, to the best of your knowledge?
MR. ROBINSON: Objection.
Q. You can answer.
A.

He was just removed from one position and had—
just inserted into a department.

Q.

Okay. Have you heard of any other cases of that
happening, that—when I say that, where the
president will call up the provost and then the
provost in turn will suggest a candidate for the
department?

A. No.
[..
[Transcript Excerpts; P. 391
Okay. Any other cases where you have heard of
Virginia State hiring somebody who didn't have
a terminal degree, hiring somebody as an assistant
professor who didn't have a terminal 13 degree
in the area that they were teaching?
MR. ROBINSON: Objection.
A. No.
Q. What about as an associate professor, are you
aware of Virginia State ever hiring somebody as
an associate professor who didn't have a terminal
degree in the area they were teaching in?
A. No.
MR. ROBINSON: Objection.

App.59a

[ . .]
[Transcript Excerpts; P. 401
Q.

Okay. Is it true that Virginia State has a standard employee work profile for faculty members?

A. Yes.
MR. ROBINSON: Objection.
Q. Is that the same across departments?
A. Basically, yes, it is the same.
[...
[Transcript Excerpts; P. 421

Has that been your experience in—at Virginia
State, that salary increases within rank are based
on merit/performance ?
Yes.

[Transcript Excerpts; P. 441

It says here new faculty salary shall be based
upon their proposed rank and previous experience
at other institutions of higher education.
Has that been—I know we went over some of this
before, but has that been your experience at
Virginia State University?
A. That approved rank—I mean that salary is based
on their—
Q.

—proposed rank and previous experience at other
institutions of higher education?

MR. ROBINSON: Objection.

App.60a

A. In my department.
Q. Okay. You have said—what about other departments, are you aware of any differences?
MR. ROBINSON: Objection.
A. As I said, people come in negotiating, and your
negotiation is based on your previous experience
and your proposed rank
Q. Have you ever heard of somebody negotiating a
higher salary based on nonacademic experience—
A. No.
MR. ROBINSON: Objection
Q.

You never heard of somebody coming in and argued
for a higher salary based on managerial experience?

A. No.
[ . . .1
[Transcript Excerpts; P. 491
Q. Okay. Is it fair to say that all the collegiate/instructional faculty members at Virginia State have
the same common core of responsibilities?
A. Yes.
Q. Okay. What—
MR. ROBINSON: Objection.
Q. To the best of your knowledge, what are those
responsibilities, what is the common responsibilities of faculty members?
MR. ROBINSON: Objection.
Q. You can answer.

App.61a

A. Facilitating, imparting knowledge, maintaining
classroom decorum, keeping office hours, meeting
classes. Those are basically, you know, the teaching
aspect of faculty.
Q. So, to the best of your knowledge, is it fair to say
that all faculty members at Virginia State University must prepare syllabi which reflect course
objectives?
A. Yes.
MR. ROBINSON: Objection.
Q. What about preparing lessons, activities and
lectures that serve to impart knowledge to
students?
A. Absolutely.
MR. ROBINSON: Objection.
Q. What about instructing their students through
the use of varying pedagogical methods such as
lectures, technology, practical classroom experiences, group discussion and media, is that a task
that is common to faculty members at Virginia
State University?
MR. ROBINSON: Objection.
A.

Yes, that's a part of teaching preparation.

Q. Okay. What about keeping track of whether
students are retaining knowledge and meeting the
objectives and outcomes of the course
[

.

[Transcript Excerpts; P. 52]

App.62a

going to be—it is going to be written, so I got the
sense that—so just so I am going to ask that again,
just so that it looks clean in the record.
What about advising majors, is that a responsibility that is common to all faculty members at
Virginia State University?
MR. ROBINSON: Objection.
A. Yes.
Q. What about maintaining office hours, is that a
responsibility that is common to all faculty
members at Virginia State University?
A. Yes.
MR. ROBINSON: Objection.
A. It's in the handbook, you must.
Q. Okay. What about providing feedback on assignments, is that a responsibility that is common to
all faculty members at Virginia State University?
MR. ROBINSON: Objection.
A. Yes.
Q. Okay. What about inputting mid term and
[ . .1
[Transcript Excerpts; P. 541
Q. —at Virginia State?
A. Yes, you must prepare.
Q. What about presenting their subject in an interesting and challenging manner?
A. I would hope, yes.

App.63a

Q. Okay. What about engaging in class discussions,
is that a responsibility that is common to professors
at Virginia State University?
A. It is, it is common.
Q. Okay. What about preparing tests and exams
that fairly cover the subject taught, is that a responsibility that is common to professors at
Virginia State University?
A. Yes.
MR. ROBINSON: Objection.
Q. Okay. What about promptly grading tests and
exams, is that a responsibility that is common to
professors at Virginia State University?
A. Yes.
Q. Okay. And we discussed office hours before,
right, that's mandated by the handbook; right?
A. Yes.

[Transcript Excerpts; P. 67]
Q. Then you have been her department chair for 6
years; is that right?
A. Yes.
Q.

What has been your assessment of Zoe Spencer's
performance as a faculty member?

A. Stellar. Zoe is the ultimate professor. As far as
teaching is concerned, students love her. As soon
as her classes go on the schedule, they fill. There
are times, many times when she will come to me

App.64a

and say well, can you allow five more people in a
class or whatever,
[..
[Transcript Excerpts; P. 681
So would you rate her performance as 10 being
among the highest-performing faculty members 11
that you oversee?
MR. ROBINSON: Objection.
A.

Yes, it is definitely the highest in my department.

Q. That's based on the quality of the teaching and
the enthusiasm the students have for her?
A. And student evaluations, yes.
Q. So what about research, has Zoe's research been
strong?
A. Yes. Yes. She publishes. She attends conferences,
she presents at conferences, so yes, her research
and her community service is even stronger.
Q. Okay. When you say—is that—that's, in terms of
research, that's relative to the other faculty
members at Virginia State, she publishes and
presents more than they do in general?
MR. ROBINSON: Objection.
A. Generally.
[

.]

[Transcript Excerpts; P. 741
Q. Were you aware that Zoe chaired a gender equity
task force in 2012?
A. Yes.

App.65a

Q. Were you aware that she gave a presentation to
the Board of Visitors, the president?
A. I knew she gave it to the president, maybe the
president's cabinet, I am not sure it was ever
presented to the board.
[
[Transcript Excerpts; P. 1581
Q. Do you remember what the grounds were for Dr.
Spencer's request for a salary adjustment?
A. That the salaries in—that Dr. Shackleford and
Cortez Dial's salary had been adjusted. No. They
had been appointed with the salary that they had.
Q. Right. That—that they were appointed with the
higher—much higher salary than hers?
A. Yes.
MR. PETERS: If we can mark this as an exhibit.
(Recess from 1:16 p.m. to 2:22 p.m.)
BY MR. PETERS:
Q. All right. So we were—before we came 20 off the
record, we were talking about when Dr. Spencer
petitioned for an increase in her salary, and it
looks like in July of 2014, and it looks like at the
time that she made this request, and do we have—
at the time—I also introduced another document
that showed that she was requesting an increase
to a base of 105,000 a year with consideration for
additional compensation to 125 per year.
And do you remember—do you recognize this
document, the VSU 77?

App.66a

A. Yes.
Q. Do you remember looking at it at the time that it
was sent, reviewing it at the time it was sent?
A. Yes.
Q. Okay. And were you ever asked to provide your
input into whether the request should be granted
for Dr. Spencer?
A. Yes.
Q.

What was your response, if you recall?

A. I supported her request.
Q.

Okay. Was that based on her merit as a professor?

A. Yes. Well, based on her merit and the standard
that had been set with the higher salary.
Q. Right. It was your belief that that should be—
that Dr. Spencer should have the benefit of the
salary, the higher salaries that had been given
to Shackleford and Dial?
A. Yes.
Q. Okay. And that was—did you believe that Dr.
Spencer was, based on her merit as a professor,
was equally, if not more entitled, to that salary
than Shackleford and Dial were?
A. Yes.
Q. Why is that?
A. Because based on her merit. As I said, she had
been teaching, and her service and her scholarship.
Q. Okay. Based on your understanding—so you were
personally familiar with all of that, right, as her
department chair?

App.67a

A. Yes.
Q.

Okay. And based on your understanding of her—
and did she routinely—did she teach a lot of classes
and a lot of students in the department?

A. Yes.
Q. Okay. More than other professors in the department, would you say?
A. Well, as I said, class limits are usually at 45 or
50, we reduce them to 45. They're usually at 50.
And whatever her class limit is, she always reaches
maximum capacity before registration closes, and
then even after—after we come back, when
registration opens again, I am usually petitioned
to open her classes.
Q. Okay. By this time, Dr. Spencer was an associate
professor; is that right?
A. Yes.
Q.

Did you feel that the skill, effort and responsibility
required of her position as an associate professor
was equal to, if not greater, than the skill, effort
and responsibility required of Dr. Shackleford
and Dr. Dial?

A. I did.
Q. Okay. And that was—was that based on the fact
that they were essentially working at the same
job?
A. Prior?
Q.

Similar jobs?

A. No.

App.68a

MR. ROBINSON: Objection.
A. No. It was based on the fact that, as a faculty
person, as I said, the EWPs are very similar, and
the fact that she had been teaching, and based
on her service and her research.
Q. Okay. So were you aware of the outcome of Dr.
Spencer's request for the salary increase?
A. Yes.
Q. Okay. What happened?
A. She met with Dr. Hill, the dean and Sachiko
Goode, and Dr. Hill informed her that he would
not honor the request.
[...
[Transcript Excerpts; P. 1631
Q. Did you do anything else to support her efforts
to get a higher salary at Virginia State?
A. I spoke to the dean.
Q. Okay.
A. I spoke to the dean, informing him that she had
requested a salary, and I told him why I would
support her salary increase, and at the time I
asked would he support her salary increase, and
he told me that he was asked not to.
Q. Okay. He was asked not to?
A. Yes.
Q. Did he say who asked him not to?
A. Dr. Hill.

App.69a

[Transcript Excerpts; P. 2581

Okay. So if we can—so now, you said before
that the complaint about Shackleford and Dials'
salaries, there was questioning about whether it
was a gender complaint. For Zoe Spencer, was it
a gender complaint?
MR. ROBINSON: Objection.
Q. You can answer.
A

For her, yes.

Q. Okay. What about for—you said you spoke to
women in the School of Education regarding—
A. Uh-huh.
Q. —and they complained about Shackleford's salaries?
A. Yes.
Q. Did—Did it have a gender component for them
as well or no?
MR. ROBINSON: Objection.
A. They saw it as, yes, they saw it as gender.
Q. What about the Mass Comm's professors who
complained about Cortez Dial, were those men or
women?
A. Women
Q. Okay. Did it have a—their complaints have a
gender component too?
A. Yes.

App.70a

DEPOSITION OF B. ROBERT KREISER PH.D—
RELEVANT EXCERPTS
(AUGUST 29, 2017)
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA

ZOE SPENCER,
Plaintiff;
v.
VIRGINIA STATE UNIVERSITY, ET AL.,
Defendants.
Civil Action No. 3:16-cv-00989
[Transcript Excerpts; P. 431
A. Well, as I say in my report, I have been retained
as an expert in customs and practices in American
colleges and universities by counsel for Dr. Zoe
Spencer, the plaintiff in this litigation.
Q. So let me ask you again, what were you asked to
do?
A. I was asked to prepare a report in which I
assessed the extent to which, if the administration
in its handling of certain aspects of this case
relating to appointments of faculty—faculty
members, SACS accreditation, academic freedom,
whether there were departures from AAUP-re-

App.71a

commended standards in the way in which these
matters were handled. I was not asked to deal
with the claims of discrimination made by Professor Spencer in this litigation.
Q. And you—
A. Can I add to that? It was not just whether they
violated the normative standards that I described
in my report but whether they also failed to abide
by their own policies, which I found to a very
substantial extent was the case.
[ . 1
[Transcript Excerpts; P. 761
A. I am prepared to testify that to the extent that
the actions taken to appoint these two underqualified or unqualified individuals, in my perception
anyway—
Q. Well, let's stop. Let's come back to that. Go
ahead.
A. To the extent that the administration's appointment of these two individuals—I will delete the
adjectives—these two individuals to these—their
respective positions in contravention of normative
standards and the policies of VSU, to the extent
that those appointments contributed to further
or creating—resulted in disparate treatment with
respect to salaries, then, yes, there's a connection
between the two.

App.72a

DEPOSITION OF WELDON HILL PH.D—
RELEVANT EXCERPTS
(AUGUST 17, 2017)
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Richmond Division

ZOE SPENCER,
Plaintiff;
v.
VIRGINIA STATE UNIVERSITY, ET AL.,
Defendants.
Civil Action No. 3:16-cv-00989-HEH
[Transcript Exempts; P. 24.1
Q. Yeah, the last salary you had.
A.

Okay. Actually, I'd have to look at a W-2 to know
for sure because there were increases along the
way. But I can tell you the last one that I
remember was $189,500.

Q.

Okay. Is it your understanding that administrators
made more than faculty members at Virginia State
University in general?

A. In higher education in general, and same is true
at Virginia State.

App.73a

[ . .1
[Transcript Exempts; P. 251
Q. Sure. What about at the—is there a level of
administrators called the President's Cabinet at
Virginia State?
A. Yes.
Q. Okay. And a President's Cabinet-level administrator, would they make substantially more than
the average faculty salary? Is that fair to say?
MR. ROBINSON: Objection.
A. The average faculty salary at Virginia State
University—average faculty; that is, all ranks,
all departments, all everywhere—is $65,000. That
range would be anywhere from about $45,000 to
$120,000 for average nine-month faculty salaries.
It's difficult to compare those to administrative
salaries, which are, first of all, twelve-month
salaries. It's difficult to compare the two. It's
almost like apples and oranges, you know.
[ .
[Transcript Exempts; P. 301
Q. Sure. With Virginia—so Virginia State was classified as a teaching institution?
A. A Master's 1, yeah, in Carnegie terms; but
largely a teaching institution
[

App.74a

[Transcript Excerpts; P. 401
Q.

Okay. And how did you determine what Dr. Dial's
salary would be in his role as an associate professor
in mass communications?

A. Using the same nine-twelfths method that I used
with Dr. Shackleford and other administrators
who returned to faculty or went to faculty positions.
Q. Okay. So in other words, you took his salary for
serving as a President's Cabinet-level administrator, and you transferred the nine-month amount
of that salary and used that as his salary as a
professor of the Department of Mass Communications; is that right?
A. Correct. Associate professor.
[ ..
[Transcript Excerpts; P. 43]
Was there—was it—so when you say there were no
criteria for setting faculty salaries, you mean
that there were no policies and no pay scale in
place?
A. There was no pay scale in place.
Q. What?
A. You're right; there's no pay scale in place.
Q. Okay. And would you say—when you say there
were no policies in place regarding how faculty
salaries were set at Virginia State—is that right?
A. There are no policies with regard to the amount
of faculty salary.

App.75a

[Transcript Excerpts; P. 521
MR. ROBINSON: I am not sure why hiring policies
would be relevant, but—and I don't know where
you have asked for the hiring policies.
MR. PETERS: You don't understand how the hiring
policies would be relevant when we spent about—
we have had two depositions mostly taken up with
how the individuals were hired?
MR. ROBINSON: Again, I don't think that's relevant.
Your claims—this client --this plaintiff's claim is
that she was not compensated comparable to other
male employees. It has nothing to do with hiring
policies.
. . .]
[Transcript Excerpts; P. 56]
Q. HR policies. These are HR policies that relate to
hiring, right?
MR. ROBINSON: Objection.
Q. You can answer. Do they relate to hiring?
A. The process for hiring; I want to reiterate that.
Q. Okay. So they relate to--well, they are policies,
right? So they—of course they relate to process.
A. Yes.
Q. They're policies relating to hiring, right?
A. Uh-huh.
Q. Okay. Can you answer "yes," please.
A. Yes.
...

App.76a

[Transcript Excerpts; P. 591
You'd already have an HR file. So if somebody's
moving from—was there—were the duties of the
faculty members the same as the duties of
administrators at Virginia State University?
A. No.

[Transcript Excerpts; P. 641
Q. Okay. So we were talking before, what—the fact
that your—so is there anything in those HR
policies that speaks to people being transferred
from administrative positions to faculty positions?
A. Not to my knowledge.
[ .

1

[Transcript Excerpts; P. 651
govern the type of paperwork you need before
you make the faculty hire, and they also provide
the procedures—the job search procedures that
you go through with respect to interviewing
candidates, right?
A. Yes, if there are candidates, yes. And the hiring
procedures do cover faculty, classified staff and
other staff as well.
Q. Okay. Is there anything else that you can recall
in those HR policies governing the 11 hiring of
faculty?
MR. ROBINSON: Objection.
A. Not to my knowledge, no.

App.77a

Q. Okay. So what about the Faculty Handbook? Did
you regard these policies as binding when you're
hiring an associate professor that is—the guidelines set forth and the procedures set forth for
hiring associate professors in the Faculty Handbook, did you regard those as binding -MR. ROBINSON: Objection.
Q. —when you were the provost?
[
[Transcript Excerpts; P. 661
A. Yeah, the policies in the Faculty Handbook are
binding.

]

[ .

[Transcript Excerpts; P. 701
Were there any policies that you are aware of
relating to placing administrators in faculty
positions when they were—when they cease their
duties as administrators?
A. In the Faculty Handbook?
Q. Anywhere.
A. There are none in the Faculty Handbook. And
there were not any to my recollection.
[ .

]

[Transcript Excerpts; P. 77.1
Q. Okay. But—and so this is something that you're
suggesting that it's—calling around and seeing if
there are any positions for administrators who
have been let go, that's something that the president does out of respect and perhaps friendship

App.78a

with the terminated administrator, sort of as a
courtesy, right?
A. Yes. The person could have been terminated or
they could have resigned and said, I'd like a
faculty position, yeah.
[..
[Transcript Excerpts; P. 80]
Q. Okay. Was there any sort of—and was there any
sort of competitive hiring process around this
appointment of Dr. Shackleford or no?
A. No.
[ . . .1
[Transcript Excerpts; P. 1141
Q. Why is that? Why did you just look at the School
of Education?
A. Because he had a Doctor of Education degree, a
terminal degree in the field. And that was the
first place I started. If I had not—if I had been
unsuccessful there, I might have looked somewhere
else.
Q. Okay. You could have looked outside the School
of Education, right?
A. Yeah, had I not been successful.
Q. Okay. Was there any other instance where—so
then—so then I asked you before I think we had
gotten up to the point where—so what about the
salary at which Dr. Shackleford was hired as an
associate professor in the School of Education?
How was that salary determined?

App.79a

A. Using a practice that we had done for many,
many persons; that is, nine-twelfths. In other
words, divide the salary by the monthly amount
and multiply it by the new monthly amount. So
you divide by twelve, multiply by nine, and it
comes out to nine-twelfths, or 75 percent.
Q. And when you say that that was taken as his
salary, what was his previous—was his previous
position Vice President of Student Affairs?
A. Correct.
Q. Okay. Was that a President's Cabinet-level position?
A. Correct.
Q. Okay. So you took his salary as Vice President of
Student Affairs and adjusted it to a nine-month
amount; is that right?
A. Correct.
Q. Okay. Was that something that Dr. Shackleford
had requested to the best of your knowledge?
A.

Not to the best of my knowledge.
.

[..

!Transcript Excerpts; P. 1161
A. Yes.
Q. Okay. And in those cases—and you said before—
in setting faculty salaries, did you generally
consider the years of experience for the faculty
member?
A. It depends, but yes.

App.80a

Q. Okay. Was it your understanding that Dr. Shackleford had previous faculty experience?
A. Yes. He had taught a course or two for me.
Q. Okay, but experience actually serving as a
faculty employee, was it your understanding that
he had that sort of experience?
A. Not at—
Q. In serving a full-time faculty position?
A. Oh, I see. Not at Virginia State.
[...
[Transcript Excerpts; P. 119]
testified before that the amount of faculty salaries
is not governed by any written policy; is that
right?
A. Right. There is not a salary administration plan,
correct.
[
[Transcript Excerpts; P. 136]
Q. Okay. Do you remember—so there's not many
you specifically remember that applied to the
Department of Doctoral Studies, any specialized
accrediting—
A. Correct. There is only one that applies—one
generic one at the university that applies to
doctoral studies, and that is that the dissertation
director gets credit for one credit hour per
dissertation he or she directs.
Q. Okay. Is that in the Faculty Handbook or is that
somewhere else?

App.81a

A. That is in the Faculty Handbook.

[Transcript Excerpts; P. 1431
Q. Why is that? Why did you just look at the School
of Education?
A. Because he had a Doctor of Education degree, a
terminal degree in the field. And that was the
first place I started. If I had not—if I had been
unsuccessful there, I might have looked somewhere
else.
Q. Okay. You could have looked outside the School
of Education, right?
A. Yeah, had I not been successful.
[
[Transcript Excerpts; P. 1521
Q. Okay. Did you feel that—did you agree with her
that there were issues regarding pay equities
between men and women at Virginia State University?
A. My own sense of it was that there was issue—
there were issues with pay equity without respect
to gender.

[Transcript Excerpts; P. 1951
Q. Okay. Now, you've testified before that you
disagreed with several aspects of the Gender
Equity Task Force presentation that Dr. Spencer
gave, right?
MR. ROBINSON: Objection.

App.82a
A. With some things about it, yeah.
Q. Okay. Did Dr. Spencer ever complain to you
about a delay in her receiving pay in time for the
holiday break in 2012?
A. I don't remember the exact circumstances, but,
yes, I do remember her complaining about pay
coming in time for—it was something; I don't
remember what it was.
[...
[Transcript Excerpts; P. 2121
Q. Okay. But you told me you had fielded—you might
have fielded calls from board members about Dr.
Spencer's previous complaint about not having
been paid on time, right?
MR. ROBINSON: Objection.
A. It would have been from a board member. From
time to time Mr. Green would call about one thing
or another.
[ . .]
[Transcript Excerpts; P. 238]
Q. Well, I mean, the one thing—I guess to clarify it,
"If you get dragged into a game that you do not
wish to play, then play the end-game.", what did
you mean by that?
A. Yeah, that's a colloquialism I use all the time. It
means: Just tell me what it is you want. I'm not
going to play the game leading up to it; just tell
me what it is you want and I can say yes or no.
Q. Okay. Why didn't you just say that, what you
just said?

App.83a

MR. ROBINSON: Objection.
A. I don't know. That's something I say.
...

App.84a

DEPOSITION OF CORTEZ DIAL
—RELEVANT EXCERPTS
(AUGUST 11, 2017)
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA

ZOE SPENCER,
Plaintiff;
v.
VIRGINIA STATE UNIVERSITY, ET AL.,
Defendants.
Civil Action No. 3:16-cv-00989-HEH
[Transcript Excerpts; P. 169]
Q. Could have been? All right. And then at a certain
point did you stop serving as the chief of staff at
Virginia State University?
A. I did.
Q. Okay. Can you describe how that happened?
A. Yes. I wanted to go back to the faculty or go to
the faculty full time. I had a discussion with the
president and tried to do it in August of 13 because
I was about to finish my degree once I had—you
know, saw the end of the tunnel. And the
department had asked me to come do that and
made that offer to me. And so—

App.85a

Q. Which department?
A. Mass Communication Department.
[ .

]

[Transcript Excerpts; P. 172]

Q. Okay. Were you aware of the hiring process for
associate professors in the Faculty Handbook, or
no?
A. No.
Q. So you don't recall having any interaction with
the Departmental Hiring Committee for Mass
Communications other—
A. No.
Q. Do you recall having any interaction with the
University Hiring Committee with regard to your
appointment as associate professor at Virginia
State University?
A. I never had any association with any committee
for any position I had at Virginia State.
[..
[Transcript Excerpts; P. 178]

Okay. What about afterwards? Did you publish
anything—have you published anything from 2013
until the present day?
A. No.
Q. Okay. What about—again, we talked about a lot
of the experience that you had had of being a
Public Affairs officer. Was there any other—was
there any research that you conducted as an

App.86a
academic specifically in the field of Mass
Communications?
A.

Can you give me an example of what you mean?
It would help if you would define for me what
you deem to be research.
I guess research in the sense that a professor
would do research, academic research, disciplineoriented Mass Communications, discipline-oriented—

A. Okay.
Q. I understand that "research" can be a broad
term.
A. Very broad. And that's why I hesitate to answer,
because I don't want to tell you something wrong.
I'm not trying to mislead you. But I conduct
detailed research on every single class I teach. I
try to conduct research on every single student
that I have, particularly at the graduate level,
right, as well as the undergraduate level. And
the reason I want to teach freshmen, and asked
to, because that helps me be a better graduate
teacher, right, because I'm an old guy. I don't
know how students think. So staying with 18-yearolds who are coming out of high school makes me
a better professor for my 25- and 26- and 27-yearolds.

App.87a

DEPOSITION OF MICHAEL SHACKLEFORD
—RELEVANT EXCERPTS
(AUGUST 10, 2017)
UNITED STATES DISTRICT COURT FOR THE
EASTERN DISTRICT OF VIRGINIA

ZOE SPENCER,
Plaintiff,
v.
VIRGINIA STATE UNIVERSITY, ET AL.,
Defendants.
Civil Action No.: 3:16-cv-00989
[Transcript Excerpts; P. 15]
Q. Can you identify that document for us?
A.

The transcript from George Washington University
doctorate program.

Q. Is that a full and complete copy, to the best of
your knowledge, of your transcript from George
Washington University?
A. Yes.
Q. Okay. And these are the classes that you took
and the academic work that you did to get your
Doctor of Education Administration—or your
Doctor of Education?

App.88a

A. Yes.
Q. Okay. It says there that the major-your major
was higher education administration. Is that
accurate?
A. Yes.
Q. Okay. And it says here that—so it was all—is it
fair to say that all of your study at George
Washington University was in the area of higher
education administration?
A. Yes.
. .1

[Transcript Excerpts; P. 132]

Q. Okay. Did anybody ever talk to you about whether
the University Handbook governed your employment as an associate professor?
A.

No one ever talked to me about that.

Q. Okay. And your understanding is that some of
the policies in the University Handbook might
govern faculty members too, right?
A. Yes.
Q. Okay. And so in your role as—in your role as an
associate professor at Virginia State University,
you described your primary responsibilities would
have been classroom responsibilities, right?
MS. EBANKS: Object to form.
Q. You can answer.
A. Classroom, as well as internships that would be
out of the classroom, but anything related to
completing the academic requirement.

App.89a

Q. Sure. So basically imparting knowledge to the
students in the subject field, right?
MS. EBANKS: Object to form.
A. (No verbal response.)
[Transcript Excerpts; P. 1331

Q. And that would have included preparing syllabi
for the courses?
A. Yes.
Q. It would have included preparing lessons, activities, and lectures to impart knowledge to the
students, right?
A. That's right.
Q. It would have included instructing the students
through varying pedagogical methods such as
lectures, technology, and practical classroom
experiences, right?
A. Yes.
Q.

It would have included keeping track of whether
students are retaining knowledge and meeting the
objectives and outcomes of the course, right?

A. Yes.
Q. And it would have, through, for example, exams,
projects, presentations, practical experiences, writing assignments, group work, service, and other
activities, right?
A. Yes.
Q. It would have included managing the

App.90a

[Transcript Excerpts; P. 1341
. . . dynamics of the classroom, right?
A. Yes.
Q. It would have included potentially assisting
students with the course material, right?
A. Yes.
Q. And maybe—sorry—it would have included maintaining regular office hours, right?
A. Yes.
Q. And you maintained regular office hours when
you were an associate professor, right?
A. Yes.
Q. And it would have involved providing feedback
on assignments, right?
A. Yes.
Q. And your duties as an associate professor included
inputting midterm and final grades, right?
A. Yes.
Q. And it also, as we saw here, it included attending
contractually mandated functions such as Fall
Convocation; Founders Day, Honors Convocation,
Spring Commencement, and other ceremonial
events, right?
[Transcript Excerpts; P. 1351
A. Yes.
Q. And also potentially, you know, going to faculty
meetings and department meetings and stuff like
that, right?

App.91a

A. Yes.
Q. And you went to department meetings, right?
A. Yes.
Q. And they had department meetings in the Department of Administrative and Organizational Leadership, right?
A. Yes.
Q. And when you were an associate professor, you
went to all those meetings, right?
A. Yes.
Q. And so when you were fulfilling those responsibilities that we just described, did you study
and prepare for the class presentations and
lectures?
A. Yes.
Q. Did you try to present your subject in an
interesting and challenging manner?
[Transcript Excerpts; P. 1361

Q. So your first semester there in fall
A. Yes.
Q.

Did you engage in class discussions with students?

A. Yes.
Q. Did you prepare tests and exams that attempted
to fairly cover the subject taught?
A. Yes.
Q. Did you attempt to promptly grade tests and
exams?

App.92a

A. Yes.
Q. And we discussed before that you maintained
regular office hours for the students, right?
A. Yes.
Q. So about how many students did you teach during
the time you were an associate professor?
A. I think the first semester I had—I started with
ten. I ended with eight. Then I picked up—the
second semester I picked up dissertations, so I
had picked up fifteen as part of the internship.
Then I had seven dissertations.
[Transcript Excerpts; P. 137.1
. . .2014, you taught one class, right?
A. I taught one—I taught one class—.. .
[...
[Transcript Excerpts; P. 1611
Q. But the requirements of teaching classes and
reviewing dissertations and that sort of thing,
that was very different from what you had been
doing, is it fair to say, as the vice president of
Student Affairs?
MS. EBANKS: Object to form.
A. The requirements for teaching class was different
than what I had to do as vice president for Student
Affairs.
[ .

]

[Transcript Excerpts; P. 1831
Q. Okay. And so going back to your—we were
starting to talk about your responsibilities as an

App.93a

associate professor in the Department of Doctoral
Studies. In the spring of—and you said that in
the fall of 2014, you taught a 500 Level class,
right? Or you taught a class in the fall of 2014; is
that right?
A. I didn't teach 500. I taught 700 Level classes.
Q. You taught a 700 Level class. And you said in
your first semester you taught an internship
course, right?

[Transcript Excerpts; P. 1841
A.

I was—I was co-teacher in an internship program.
[ . 1

[Transcript Excerpts; P. 081
. . . a dissertation committee, you had to have—
you had to have a doctorate; is that right?
A. That's correct.
Q. And did it have to be a doctorate in a particular
field, or no?
A. It didn't have to be a doctorate in a particular
field, but you had to demonstrate expertise in
the subject matter that you were being asked to
serve on the committee for.
Q. So something like the subject matter being
school administration of a K through 12 school;
is that right?
A. Didn't have to be that, but in this case CTE is at
the K through 12 level.

App.94a

Q. Okay. In all of the dissertations that you served
on, where you served on the committee, those all
involved—the subject area of them was all
something to do with pre-K through 12 education?
MS. EBANKS: Object to form.
Q. You can answer.
A. I don't remember, but my best guess would be
yes.
[Transcript Excerpts; P. 2097
Q. Yes? Okay. Looking again at your appointment
letter from 2014, which I think is this document
here—
A. Okay.
Q. —it says that the term appointment for the
academic year, August 11, 2014, to May 5th, 2015,
inclusive, at a salary of 119,738. So that was
your salary as an associate professor in the
Department of Doctoral Studies, right, for that
year?
A. I'm going to assume yes. That's what's on here.
Q. That's not inconsistent with your recollection,
right?
A. It is not.
Q. Okay. And they say, "This salary will be payable
in twenty-four semi-monthly installments beginning September 16, 2014, and ending September
1, 2015."
So does that reflect a nine-month contract where
payment's spread out over the entire year?

App.95a
[Transcript Excerpts; P. 210]

A. That's what they do.
(Shackleford Deposition Exhibit 13 was marked
for identification and is attached.)
Q. Take a moment to read this. Do you recognize
this document that's been marked as Exhibit
Number 13?
A. I'm not going to say I recognize it, but this seems
like what I should have received.
Q. To the best of your knowledge, this is the contract that you received from Virginia State University to serve as an associate professor during
the 2015-2016 academic year?
MS. EBANKS: Object to form.
Q. You can answer.
A. Yeah. This is the contract that would have run
from the fall of '15 to the spring of '16.
Q. Okay. And it says that your salary was 119,738.
Do you know how that salary was arrived at?
A. I do not.
Q. Okay. To the best of your knowledge, does that
represent nine-twelfths of the salary that . . .
[Transcript Excerpts; P. 2111
. . . you had been receiving as the vice president

for Student Affairs?
MS. EBANKS: Object to form.
A.

I do not know because I had no discussion related
to the salary at all.

App.96a

Q. And it says that, "Your duties and responsibilities
will be defined for you by the chairperson of your
department and approved by the dean of your
school and the provost. These will involve the
load of scheduled teaching for the academic year,
supplementary activities related to the educational
program of the university, and include a reasonable
share of committee work, regular attendance at
the meetings of the departmental faculty, school
faculty, general faculty, staff meetings, and
required participation in designated academic
ceremonies such as Fall Convocation, Founders
Day, Honors Convocation, Spring Commencement,
and other ceremonial events." Does that reflect
your understanding of your job responsibilities
as associate professor in the Department of
Administrative and Organizational. . . .
[Transcript Excerpts; P. 2 121
. . . Leadership?
A. Yes, sir.
Q. Okay. And once again it lists the department as
the Department of Administrative and Organizational Leadership. We talked about why that was.
Was that a department that merged with Doctoral
Studies?
MS. EBANKS: Object to form.
Q. You can answer.
A. Yes. Again, I know the department went through
several organizational changes or title changes,
and I do know that this department existed and
Doctoral Studies existed; and I think when they
combined them it became Educational Leadership.

App.97a

. . . But, again, I'm not sure as to what was
what, but I do know that there was an initiative
to rename the department since they merged the
two.
Q.

Did you teach over the summer of 2015?

A. I did.
Q.

What did you teach in the summer of 2015?

A. I may have teach—I'm thinking I taught—I want
to say something about human.. .
[Transcript Excerpts; P. 2141
. . . taught summer school, typically they paid
you for summer school.
Q. Okay. And your responsibilities as the professor
for that class were to prepare a syllabus, impart
knowledge to students, right?
A. Yes.
Q. Okay. All the things that we had discussed
earlier, right?
A. Yes.
MS. EBANKS: Object to form.
Q. And then did you teach any other courses in the
summer of 2015?
A. I don't think I taught—I don't think I taught any
classes for which I was a teacher of record, but I
think I may have worked with some of the
dissertation students over the summer.
Q. Did you do anything else in your role as associate
professor in the Department of Doctoral Studies
in the summer of 2015?

App.98a

MS. EBANKS: Object to form.
Q. You can answer.
A.

Continued the recruiting efforts.
[

[Transcript Excerpts; P. 2151
Q. Okay. What about the fall of 2015? What duties
were assigned to you in your role as associate
professor in the Department of Doctoral Studies
in the fall of 2015?
A. Same duties that we've outlined as well as the
recruiting responsibility again.
Q. Okay. When you say "the same duties that we've
outlined," what would those include?
A. Teaching, preparing lesson plans, grading, you
know.
Q. Sure. That would be preparing syllabi, right?
A. Right.
Q. Preparing lessons, activities, and lectures that
serve to impart knowledge to students, right?
A. Right. But I didn't have to do that in that
semester because all I had were dissertation
students.
[Transcript Excerpts; P. 2161
Q.

Okay. And then were you keeping track of whether
the students were retaining knowledge and keeping—and meeting the objectives and outcomes of
the course?

A. Yes.

App.99a

Q. Okay. And were you assisting students with the
course material?
A. Yes.
Q. Okay. And you were maintaining office hours?
A. Yes.
Q.

You were maintaining a lot of office hours, right?

A. Yes.
Q. Okay. You were providing feedback on assignments, right?
A. Yes.
Q. And you're inputting grades?
A. Yes.
Q. And you're attending contractually
[Transcript Excerpts; P. 2171
. . . mandated functions, right?
A. Yes.
Q. And then you were—so what were you—you were
advising dissertation students in the Department
of Doctoral Studies in the fall of 2015? Fair?
A. What was your question again?
Q. You were advising dissertation students in the
fall of 2015?
A. Yes.
Q. Did you teach any classes that semester?
A. No.

...

App.100a
DEPOSITION OF ZOE SPENCER
—RELEVANT EXCERPTS
(AUGUST 8, 2017)
IN THE UNITED STATES DISTRICT COURT FOR
THE EASTERN DISTRICT OF VIRGINIA
ZOE SPENCER,
Plaintiff
v.
VIRGINIA STATE UNIVERSITY
and DR. KEITH MILLER,
Defendants.
Case No. 3:16-CV-00989-HEH
[Transcript Excerpts; P. 1481
Q. How many classes do you teach?
A. Five.
Q. Did you teach five classes in 2012?
A. Yes.
Q. In 2013?
[Transcript Excerpts; P. 1491
A. Yes.
Q. In—

App.101a

A. No. In 2013 I was in China for one semester. So
one semester, yes, I did.
Q. In 2014?
A. In one semester in 2014 I taught six' classes.
Q. In 2015?
A. Five, yes.
Q. In 2016?
A. Yes, five.
Q. And in 2017?
A. Five.
Q. Do you know how many classes Dr. Dial taught—
A. Four.
Q. —in 2012?
A. Four.
Q. In 2012?
A.

Oh, I don't know. He was—I'm sorry.
He was the chief of staff in 2012.

Q. So you don't know how many classes he
[Transcript Excerpts; P. 1501
. . . taught that year, do you?

A. What I know is that his primary responsibility
was not teaching classes. His primary responsibility was chief of staff.
Q.

But you don't know if he taught or not, do you?

A. His primary responsibility—

App.102a

Q. I'm not asking what his primary responsibility
is.
A. Listen—
Q. I'm asking you to answer the question.
A. —that's outside of the scope of my complaint
anyway.
Q. What are you talking about outside of the scope
of your complaint? We're the lawyers 16 here.
A.

He was the chief of staff in 2012.
That's what I know his responsibilities were.

Q. Let me tell you, Dr. Spencer: What's outside of
the scope of this discovery is argued by attorneys,
and we can submit that to the court.
I asked you a question. Are you not
[Transcript Excerpts; P. 151]
. . . going to answer it?
A.

He was the chief of staff. I know that he was the
chief of staff in 2012.

Q. The question is: Do you know if he taught any
classes in 2012?
A. To my knowledge, he did not.
Q. Okay. That's the answer. Thank you. In 2013, do
you know if he taught any classes?
A.

He was the chief of staff in 2013. To my knowledge,
he did not.

Q. In 2014?
A. He taught four classes.

App.103a

Q. How many classes was he—so in 2014 he taught
four classes, to your knowledge?
A. To my knowledge.
Q. And you taught six classes?
A. I taught five.
Q. You said you taught six in 2014.
A. Oh, one semester. That was the second semester.
First semester I taught five. Second semester I
taught six.
[Transcript Excerpts; P. 1521
Q. Do you know how many classes he taught each
semester?
A. Four.
Q. Both semesters?
A. Yes.
Q. If you teach the same or more classes at a university, is that the—do you have to put the same
skill and responsibility into that as another
professor?
A.

Say that again.

Q. If you're teaching the same number of classes—
let's say he taught five classes and you taught
five classes, would that require the same skill
and responsibility as you?
A.

If we both taught five classes?

Q. Yes.
A. Yes.

App.104a
Q. It doesn't matter how many students are in
there?
A. It does matter, absolutely.
[
[Transcript Excerpts; P. 1581
Q. What classes do you teach at Virginia State?
A. I teach sociology courses. Do you want me to list
them? They're too long to list. Do you want a
list?
Q. Sure.
A. Intro to Sociology. I've taught Social Problems.
Are you talking about currently or over
[Transcript Excerpts; P. 1591
. . . the span of my career at Virginia State?
Q. Well, let's just go through all of them.
A. Okay. So Intro to Sociology, Social Problems,
Marriage and Family.
Q. Okay.
A. Race and Ethnic Relations.
Q. Race and Ethnic?
A. Ethnic Relations, Social Psychology.
Q. Okay.
A.

Sociology of the Media, African American Women.

Q. Okay.
A.

Sociology of Sport.

Q. Okay.

App.105a

A.

Hip Hop in the Prison Industrial Complex.

Q. Okay.
A. Sociological Theory.
Q. Okay.
A. Research Methodology.
Q. Okay.
[Transcript Excerpts; P. 1601
A.

Criminal Justice Research Methods.

Q. Okay.
A. A graduate course, Problems in African American
Community.
Q. Okay.
A. Police and Ghettoization.
Q. Is that a separate graduate course?
A. Yes.
Q. Master's level?
A. Yes.
Q.

Any of these dissertation level?

A. No.
Q. What was the police one?
A. Police and Ghettoization, Urban Sociology, Sociology of Religion.
There are more. So I want to reserve my right to
add to it, but that's all I can think of right now.

App.106a

Q. When you're talking about the first 12 classes
that you went through, they were all undergraduate courses?
A. Yes.
[ . .1
[Transcript Excerpts; P. 1661
Q. So in your 2016 course you had four students in
that master's level course?
A. Yes.
Q. How many students did you typically have in
your undergraduate level courses?
A. They ranged from 62, depending on how my chair
establishes my course load, my student load. They
range from 45 as a cap to 50 as a cap to 60 as a
cap, and generally my caps go over. So it ranges
from maybe 47 to 62 has pretty much been my
highest. And that's where they're capped, at 47,
50, and 60—I mean, 45—
Q. So in the fall of 2016 when you had four
undergraduate courses ranging from 47 to 62, let's
take one of those courses from the fall of 2016.
Which undergraduate course did you teach?
A. Marriage and Family, Race and Ethnic Relations,
Sociological Theory, and an elective.
Q. Let's take Marriage and Family, how many
students did you typically have in your Marriage
and Family?
A. 62.

App.107a

[Transcript Excerpts; P. 1681
Q. So for you, the master's level student—the
master's level course, Problems in African American communities, took less time and effort
than—
A. I'm sorry. Go ahead.
Q. Took less effort—let's take time out of it—took
less effort than your marriage and 8 family course?
A. I can't divorce time and effort, because when I'm
talking about—when you're talking about effort,
specifically the effort that it takes to grade
papers, the effort that it takes to manage classroom
dynamics, etc., is going to be—the effort that it
takes to even prepare syllabi is going to be different
than manage classroom discussions, assist students
with the course material, and all of the things
that are part of my responsibilities is going to be
greater if I have 62 students in a class versus
four students in a class.
[...
[Transcript Excerpts; P. 2061
. . . affirmative defenses to discrimination.
Q. What are those?
A. Experience, merit, seniority, and there is one
more. I can't remember what it is. But the main
ones are experience, merit, and seniority. Oh,
and the last one is anything other than related
to gender, which is the more broad one. So in
dealing with experience, when you're qualifying
experience based on the EPA, the experience says

App.108a

that you cannot consider experience that's outside
of the scope of the position that is being questioned.
Q. Where is that codified?
A. You're asking me where it's codified.
It's codified in the EPA and the Title VII documents, and it's also codified in the EEOC regulations.
Q. What regulation?
A. The EEOC regulations.
Q.

There's thousands of regulations.
Which one?

A. Well, if I had known I was going to be tested on
that, I would have written it down, .
[ . . .]
[Transcript Excerpts; P. 240]
Q. Have you ever worked in administration?
A. No. I have no desire.
Q. So you don't know what skills and knowledge
and experience and effort goes in to do the job of
a chief of staff?
A. What I do know—
Q.

I'm asking your Do you know that?

A. No. What I do know is that with reference to my
lawsuit, the skills that are required to be a VP of
student affairs and the skills that are required
to be a chief of staff do not transfer to the skills
required to be an associate professor.
[...

App.109a

[Transcript Exempts; P. 2501
Q. I just want to make sure we go to the issue. You
don't like the fact that Cortez Dial and Dr.
Shackleford—Dr. Dial and Dr. Shackleford went—
were allowed to move from faculty to administration in your opinion against Virginia State's
policy, right?
A. This is not a matter of what I like. No. No. No.
You asked me a question. You said you don't like.
This is not a matter of what I like. This is a
matter of what is right, what is equitable, and
what is standard by Virginia State University's
own policies and the SACS guidelines.
So it's not a matter of what I like.
What I know is that their removal from administrative positions into associate professor positions violated the EPA and the Title VII because.
A. What it dictates specifically is it states that
when you're speaking about a specific job, that
the experience that's considered under the affirmative defenses, the experience—
Q. What affirmative defenses?
A. The affirmative defenses of—that someone else
had experience, or work experience, that that
work experience has to be directly related to the
job in question. And it specifically states in all of
the guidelines that you cannot consider unrelated
degrees and unrelated work experience to bring
to the experience of that job that's in question.
Q. There is nowhere that the EPA says—

App.110a

A. Oh, it surely does.
MR. PETERS: Objection.
A. It surely does.
Q. And that there are affirmative defenses that say
that?
A. No. There are—okay. So there are
[Transcript Excerpts; P. 251]
. . . they were paid significantly higher salaries
than I with less qualifications, less experience,
less merit, less credentials.
Q. Let's say they were paid the same salary that
you were paid. If they were paid the exact same
salary that you were paid and they moved from
faculty to administration, would you think that
that was discriminatory?
A. It would still—it would still violate the—it would
still—absolutely it would be discriminatory. It
still violates the practices as established by the
university.
Q. What practice established by the university?
A. The policies established.
Q. What policy?
A. The policy that as an FA you are not entitled to
retreat rights, and you are not entitled to tenure,
and you serve at will, and that there is nothing
that says that you're supposed to move from an
administrator position to a faculty position without
tenure. The people who have been allowed in. . . .
[Transcript Excerpts; P. 252]

App.111a

. . . the past to move from administrator to faculty positions are the people who held tenure in
their department and in their discipline.
Q.

Well, let me ask the question of: If Dr. Shackleford
and Dr. Dial were female, would that be a violation
of policy?

A. Absolutely.
Q. So your position is regardless of whether they
are male or female, Virginia State University
cannot move faculty members—I mean, administrators into faculty when their contract says
that they can't do that?
A. Yes.
Q.

So if Virginia violates—Virginia State violates its
own policy, that's wrong?

A. Yes.
Q.

Okay. Regardless if they're female or male?

A. Regardless if they're female or male, it violates
the policy. Where—where—
Q. Go ahead.
A. Where you not only violate the policy, . . .
[Transcript Excerpts; P. 253]
. . . but then where those people are given an
advantage—so you can—in violating the policy,
that can be discriminatory, but specifically in this
case where you violate the policy and you appoint
people to a position that's held by a protected
class—me—and then you pay people $50,000
and $35,000 more than the protected class—me
—then that is discriminatory.

App.112a

MR. ROBINSON: Do you want to take a 10 break?
Okay.
[Transcript Exempts; P. 2801

. . . things got a little rocky. Specifically in September at board meeting that I attended, the
then board rep, Dr. Omojokun, had presented a
report to the board where he referred to the gender
equity task force and the issue of gender inequity
in pay. He kind of glossed over it. He didn't go
into detail about it. At the following board meeting
in November I approached a board member, Terone
Green, about the issue of gender equity. And I
also gave him a copy of the gender equity report,
because after we gave the presentation and made
the recommendation for an ombudsman position,
and also encouraged them to do further investigation into the issue of the gender inequity in pay,
we assumed that they were going to respond to
that.
So after they didn't respond, and after Dr.
Omojokun didn't really apprise the board of the
issues, then in November I approached board
member Terone Green about it and I submitted a
copy of the gender equity task force snapshot to
him, and told him what my concerns were, and
asked him to apprise the board, and asked him
to look into it.
Q. So you—what evidence do you have to support
that Dr. Hill retaliated against you, except for
your perception 'and feeling that he was angry
about you presenting this gender equity report?

App.113a

A. When the first—the first point is that when I
was supposed to get paid, my paperwork didn't—
and if you look at the signatures, unless people
shifted dates, my paperwork didn't—in spite of
me calling and asking Dr. Hill to forward my
paperwork, Dr. Hill told me that my paperwork
had been forwarded. I did not get paid on the
date that I was supposed to get paid. I called
Terone Green and I asked Terone Green to
intervene, and Terone Green said that he was
going to talk to Dr. Hill—because that was your
original question. He was
[Transcript Excerpts; P. 2811

. . . going to talk to Dr. Hill about my pay and
about my paperwork. I don't know what happened
in the conversation. But again, when I talked to
Dr. Hill, he told me my paperwork had been
forwarded again, and it didn't. So I didn't even
get paid on January the 1st.
In the process of talking to the people who would
have received the paperwork after and before Dr.
Hill, the people who had received it before had
signed off on it. The people who were supposed
to receive it after never received it. So I think it's
a fair assumption to know that that, included
with the different tone and the different energy
that he was dealing with me and in the glares
that I got when I was speaking to Mr. Green about
the gender equity task force, I think it's a fair
assumption that now I talked—do a gender equity
task force, and then I tell the board member about
gender equity, and now all of a sudden you're
not—you're not forwarding my—my paperwork
simply so that I can get paid—not in one pay

App.114a

period, but I didn't get paid for two. It was the
third pay.. .
[ . . .1
[Transcript Excerpts; P. 2881
A.

For tenure and promotion, our dossiers go through
a scrutiny, a chain of scrutiny. The first is we go
through the departmental tenure and promotion
committee. The second is we go through the chair.
We go to the dean, and the dean goes off of the
chair's recommendation. And then the dean
submits it to the university promotion and tenure
committee. And that promotion and tenure committee then reviews the dossier, and then the
dossiers are submitted to the provost office.
[

[Transcript Excerpts; P. 405.1
. . . University. Do you have an understanding of
the process by which associate professors are
hired at Virginia State University?
A. Yes.
Q. Okay. Can you tell me what that is based on,
what your knowledge of—
A. I'm sorry.
MR. ROBINSON: Objection.
Q.

—what your knowledge of how associate professors
are hired at Virginia State is based on?

MR. ROBINSON: Objection.
Q. You can answer.

App.115a

A. Generally—are you talking about hired or how
they're appointed? Generally—
Q. I'm talking about how associate professors are
appointed to the faculty at Virginia State University.
MR. ROBINSON: Objection.
A. According to the faculty handbook, the person
who is appointed to associate professor should
have four years of teaching experience, they.. .
[Transcript Excerpts; P. 4061
. . . should have a record of teaching excellence,
they should have a terminal degree in the teaching
discipline, and they should be able to contribute
to the mission of the university.
Q. Okay. Have you reviewed the credentials of
Cortez Dial?
A. Yes, I have.
Q. Okay. Is it your opinion that he satisfies the generally applicable credentials set forth in the
faculty handbook for associate professors?
MR. ROBINSON: Objection.
A. No, he does not.
Q. Okay. Why do you say that?
MR. ROBINSON: Objection.
Q. You can answer.
A.

Because the faculty handbook and the accrediting
body guidelines are very specific about the
requirements for teaching in a specific discipline.
The principal one is that the individual should

App.116a

have a terminal degree in the teaching discipline
or related field; they should.. .
[Transcript Excerpts; P. 4071
. . . have four years of teaching experience at the
university level; they should have a record of
teaching and research; and they should be able
to contribute to the—to the mission of the university.
Q. Okay. And when you say that you're familiar
with the hiring process, in what ways have you
participated in the hiring of associate professors
at Virginia State University?
A. Generally—
MR. ROBINSON: Objection.
Q. You can answer.
A. Generally professors are not always hired at the
associate professor rank, because associate
professor comes with tenure and promotion. I've
been a part of the hiring process of assistant
professors. And in that process the policy is that
the chair, in coordination with the department,
will submit or put out a job description or a job
announcement, as opposing counsel showed in my
instance. They would refer to the hiring committee,
the departmental hiring committee. The hiring.. .
[Transcript Excerpts; P. 4081
. . . committee would scrutinize applications, they
would interview the applicants, and then they
would make a recommendation to the chair. The
chair would make the recommendation to the
dean, and the dean would make the recommend-

App.117a

ation to the provost, and then the provost would
submit it to the president and to the board for
approval.
Q. Okay. To the best of your—so you've looked
through the documents pertaining to the hiring
of Cortez Dial and Michael Shackleford, their
appointment as associate professors to the Virginia
State University faculty, correct?
A. Yes. Yes, I have.
Q. Okay. Is there any evidence that you've seen in
their documents that that normal process was
followed?
MR. ROBINSON: Objection.
Q. You can answer.
A. That from what I saw in both the A-21 and in
reviewing their credentials, no, the normal process
was not followed. Because Dr. Weldon Hill
appointed them to those positions.. .
[ . . .]
[Transcript Excerpts; P. 410]
Q. Okay. Now, is it your contention that these—
that the—based on your knowledge, is it your
contention that this was an intentional act, this
was an act of intentional discrimination by Virginia
State to appoint Michael Shackleford and Cortez
Dial to the faculty at the associate professor
rank at these salaries?
A. Yes.
MR. ROBINSON: Objection to form.
Q. Okay. Why do you say that?

App.118a

MR. ROBINSON: Objection to form.
Q. You can answer.
A. As I stated in my various e-mails to them, they
were a part of a male-dominated—a male-dominated administration. And because of their maledominated administration, they appointed them
and made concessions for them that they did not,
have not afforded to anyone else.
Q.

Okay. To the best of your knowledge, was Virginia
State University on notice that this would be an
intentionally discriminatory act to.. .
[

[Transcript Excerpts; P. 4121
. . . that right?
MR. ROBINSON: Objection.
A. Yes.
Q. And then I didn't let you—so you've looked over
Michael Shackleford's personnel file, right?
A. Yes.
Q. Is it your opinion that Michael Shackleford has
the qualifications set forth in the faculty handbook
to serve as an associate professor?
MR. ROBINSON: Objection to form.
A. No.
Q. And what is that based on?
MR. ROBINSON: Objection to form.
A. My opinion?

App.119a

Q. What is your last answer based on? Why don't
you believe that based on the faculty handbook
and your knowledge of faculty hiring at Virginia
State University and at other universities, why
doesn't Michael Shackleford have the qualifications
to be—to serve as an associate professor in the
department of doctoral studies?
[Transcript Excerpts; P. 413]
MR. ROBINSON: Objection to form.
Q. You can answer?
A.

Because his degree is not in PK through education,
because he did not possess the four years of prior
teaching experience, because he did not have a
prior record of excellence in teaching and research,
and I think that that's probably—and because he
didn't go through the hiring process that other
faculty members are supposed to go through.

Q. Okay. Now, with respect to—have you ever heard
of—so let me get to what you did—what your job
responsibilities were at Virginia State University.
Was it part—is it part of your job—was it part of
your job as an associate professor to teach graduate
students?
A. Yes.
Q.

Okay. Is it part of your job now as a professor at
Virginia State University to teach graduate
students?

A. Yes.
Q. Okay. That's a requirement—with

App.120a

[Transcript Excerpts; P. 4141

. . . respect to when you were an associate professor, that was something that was required of
you as an associate professor to teach graduate
students; is that right?
A. When my chair appoints or has a need for me to
do that, then yes, that becomes a requirement to
do it.
Q. Okay. So as a—so are you classified as a collegiate
instructional faculty member?
A. Yes.
Q. You've looked through Cortez Dial and Michael
Shackleford's personnel files, correct?
A. Yes.
Q. Okay. Are they—were they qualified as collegiate
instructional faculty members?
MR. ROBINSON: Objection.
A. Not per the faculty handbook.
Q. Okay. But were they—
A. Or SACS.
Q.

Yeah. Were they classified as associate professors?

MR. ROBINSON: Objection.
[Transcript Excerpts; P. 4151

A. Yes. Oh, I'm sorry, you meant were they classified
as collegiate when they were transferred to—
Q. Right.
A. Yes, they were.

App.121a

Q. Okay. When they were—after they were hired as
associate professors, they were classified as
collegiate instructional faculty members, right?
A. Yes.
MR. ROBINSON: Objection.
Q. They had not been, previous to their appointment,
classified as collegiate instructional faculty members, right?
MR. ROBINSON: Objection.
A. No.
Q. Okay. So after they were appointed—so—now, is
it your contention that there is a shared common
core of tasks that are performed by every collegiate
instructional faculty member?
MR. ROBINSON: Objection.
A. Absolutely.
[Transcript Excerpts; P. 4161
Q. Okay. Do those—now, I'm going to read to you a
list, and I want you to tell me if this accurately
reflects the primary duties that you had as an
associate professor at Virginia State University:
Prepare lessons, activities, and lectures and
serve to impart knowledge to students?
MR. ROBINSON: Objection to—
A. Yeah.
MR. ROBINSON:—the form of the question.
Q. You can answer.
A. Yes.

App.122a

Q. Instruct their students through the use of varying pedagogical methods such as lectures, technology, practical classroom experiences, group discussion and media?
A. Yes.
MR. ROBINSON: Objection to the form of the question.
Q. Keep track of whether students are retaining
knowledge and meeting the objections [sic] and
outcomes of the course through exams, projects, . . .
[Transcript Excerpts; P. 4171
. . . presentations, practical experiences, writing
assignments, group work, service, and other
activities?
MR. ROBINSON: Objection to—
A. Yes.
MR. ROBINSON:—the form of the question.
Q. Manage classroom dynamics?
A. Yes.
MR. ROBINSON: Objection to the form of the.
Q. Assist students with course materials?
MR. ROBINSON: Objection to the form of the—
A. Yes.
MR. ROBINSON:—question.
THE REPORTER: I'm sorry, hold on one second. Can
you pause just a second?
THE WITNESS: I'm sorry.

App.123a
THE REPORTER: It's hard for me to take everyone
at the same time.
THE WITNESS: I'm so sorry.
[Transcript Excerpts; P. 418]
MR. PETERS: And I'll note the objection to the
rest—the objection to the form of my question as
I go through this list, okay? Is that all right?
MR. ROBINSON: I'll object.
MR. PETERS: Okay. Can you save your objection?
Can we note them on the record?
MR. ROBINSON: I'll object to each 9 question.
Q. Okay. Advise majors?
MR. ROBINSON: Objection.
A. Yes.
Q. Okay. Maintain office hours?
MR. ROBINSON: Objection.
A. Yes.
Q. Okay. Provide feedback on assignments?
MR. ROBINSON: Objection.
A. Yes.
Q. Okay. I think I've laid—so was it a part of your
job as an associate professor at Virginia State
University to input midterm and final grades?
[Transcript Excerpts; P. 419]
Q. Can you answer verbally?
A. Yes.

App.124a

Q.

Okay. Was it a part of your job as a professor at
Virginia State—as an associate professor at
Virginia State University to attend contractual—
contractually mandated functions?

A. Yes.
Q. Okay. Were the job responsibilities that I've just
described, were those the primary parts of your
job responsibilities as an associate professor at.
Virginia State University?
A. Yes.
Q. Okay. Would that describe the majority of the
work done by all associate professors at Virginia
State University regardless of discipline?
MR. ROBINSON: Objection—
A. Yes.
MR. ROBINSON:—to the form.
Q.

Does that—to the best of your knowledge, having
reviewed the materials produced in discovery,
did Cortez Dial engage in those activities that
I've just described as a part of his

[Transcript Excerpts; P. 4201
. . . job as an associate professor at Virginia State
University?
A. Yes.
MR. ROBINSON: Objection to form.
Q. Was Michael Shackleford, to the best of your
knowledge, based on what you've reviewed as far
as the discovery in this case, were those the

App.125a

primary parts of his job as an associate professor
at Virginia State University?
A. Yes.
MR. ROBINSON: Objection.
Q. Okay. Now, what about the skills employed in
your job as an associate professor. I'm going to
read you a list, and I want you to tell me whether
this describes the skills that you employ in your
employment as an associate professor at Virginia
State University.
Do you study and prepare for class presentations
and lectures?
A. Yes.
Q. Okay. Present—do you present your subjects in
an interesting and challenging manner?
[Transcript Excerpts; P. 4211

A. Yes.
Q. Okay. Do you engage in class discussions?
A. Yes.
Q. Okay. Do you prepare tests and exams that fairly
cover the subject taught?
A. Yes.
Q. Okay. Do you promptly grade tests and exams?
A. Yes.
Q. Okay. Do you maintain office—regular office
hours for student consultation and assistants?
A. Yes.

App.126a

Q. Okay. Does that—are those things that I just
mentioned, are those required for all people who
serve as associate professors at Virginia State
University, regardless of their discipline?
A. Yes.
MR. ROBINSON: Objection.
Q. Okay. To the best of your knowledge having
reviewed the materials that were produced in. . .
[Transcript Excerpts; P. 4221

. . . discovery, do those accurately describe the
skills that were required of Cortez Dial and
Michael Shackleford in their roles as associate
professors at Virginia State University?
MR. ROBINSON: Objection.
A. Yes.
Q. Okay. Now, in your—was there any—have you seen
anything at all in this case or anywhere else that
convinces you that Cortez Dial and Michael Shackleford were paid more because they instructed
graduate students?
MR. ROBINSON: Objection.
A. No.
Q. Okay. Why do you say that?
A. Because—
MR. ROBINSON: Objection.
Q. Go ahead.
A. Because that's not the pattern of Virginia State
University. For example, the departments of
business, which has the highest salary, they don't

App.127a

have a graduate program, and they do not instruct
master's or doctoral students. And.. .
[Transcript Excerpts; P. 423]
. . . so the level that you teach does not—is notdoesn't determine your salary.
Q. Okay. Have you ever heard of somebody being
approved for a pay increase because they instructed
graduate students?
MR. ROBINSON: Objection.
Q. At Virginia State or anywhere else?
A. No.
Q. Okay. What about the need to attract Cortez
Dial and Michael Shackleford to Petersburg,
Virginia, do you believe that they received the
initial salaries that they received as associate
professors in order to attract them to Petersburg,
Virginia?
MR. ROBINSON: Objection.
Q. You can answer.
A. No.
Q. Okay. Why do you say that, that they were not
paid these salaries in order to attract them to
Petersburg, Virginia?
MR. ROBINSON: Objection.
A. Because their salaries reflected.. .
[Transcript Excerpts; P. 424]
. . . three-quarters of their administrator salary
that had nothing to do with their roles as

App.128a

professors, and they were already in Petersburg
at that time.
Q. Okay. And to the best of your knowledge, how
long had Cortez Dial been living in Petersburg,
Virginia at the time he received the salary that
he received?
A. I don't know if they live in Petersburg. I know
that Virginia State University is in Petersburg. I
would assume that he lived in the area as long
as he worked in—at Virginia State University,
which is—I can't remember exactly how long.
[

.

[Transcript Excerpts; P. 4261
Q. Have you—you've reviewed Mr. Shackleford's
personnel file, right?
A. Yes.
Q. Okay. Did you find on there any.. .
[Transcript Excerpts; P. 4271
. . . notation indicating whether he was eligible
for promotion or tenure—
MR. ROBINSON: Objection.
Q. —as an associate professor?
MR. ROBINSON: Objection.
A. No.
Q. Okay. And why do you say that? Was there
something on there that would lead you to believe
that he was not eligible for promotion or tenure?
MR. ROBINSON: Objection.

App.129a

A. Yes.
Q. Okay. Did it—in fact, did it say on there that
he's not eligible for promotion or tenure?
A. On the A—
MR. ROBINSON: Objection.
Q. Yeah, go ahead.
A. On the A-21 form that was signed by Dr. Hill, it
said specifically that he's appointed on a term
contract, not a tenure track contract, and that he
is not eligible for tenure or promotion.
[Transcript Excerpts; P. 4281
Q. Okay. Did it say anything about what his
responsibilities would be as an associate professor?
MR. ROBINSON: Objection.
Q. Okay. You can answer.
A.

It said—and I quote—he is responsible for teaching
and research only.

Q. Okay. Were you responsible for teaching and
research as an associate professor at Virginia
State University?
MR. ROBINSON: Objection.
A. Teaching, research, and service, yes.
Q. Okay. So your—what percentage of your activities—of your time as an associate professor are
taken up in teaching or research?
A. Because I teach five classes, and sometimes I've
taught six, it really is probably 60 percent. However, when I have a strong research agenda; for
example, this year I put out a chapter and I put

App.130a

out two peer-reviewed articles in one year, and I
have four presentations just in this semester
alone. So for me, this semester it's.. .
[Transcript Excerpts; P. 4291
. . . probably 60 and 50, and I still do presentations.
So, I mean, it's over 100 percent.
Q. So I'm asking you what percentage of your time
is taken up by teaching and research.
What percentage of your time would you say as a
professor at Virginia State is taken up by teaching
and research? And I mean your work time.
A. Probably 80 percent.
Q.

Okay. So that's the vast majority of what you do
is teaching and research, right?

A. Yes.
Q. Okay. What about Cortez Dial, did you review
Cortez Dial's A-21, which was produced in this
litigation?
A. Yes.
Q. Okay. Did it appear from that, that Mr. Dial was
eligible for promotion or tenure?
MR. ROBINSON: Objection.
Q. You can answer.
A. No. The A-21 stated that he was not eligible for
tenure or promotion.
Q.

Okay. Did it state what Mr. Dial's job.. .

[Transcript Excerpts; P. 4301
. . . responsibilities would be at Virginia State?

App.131a

MR. ROBINSON: Objection.
A. Unlike Shackleford's, I don't think that it—
Q. Okay.
A. —specified.
Q.

Okay. But to the best of your knowledge, he was
primarily responsible for teaching, right?

MR. ROBINSON: Objection.
A. Teaching.
. . .]
[Transcript Excerpts; P. 4411
. . . employed at Virginia State University?
A. Yes.
Q. Okay. What have the—have you ever received a
negative performance review at Virginia 5 State
University?
A. No.
Q. Okay. Have you—have your—is it fair to say
that your performance reviews at Virginia State
University have consistently been outstanding?
A. Yes.
Q. Okay. Well, let me get for you—and in here I
believe that we have your promotion tenure 2016,
2017, what you received. Is this—can you—do you
know—can you describe for—do you know—
MR. ROBINSON: I'm sorry.
MR. PETERS: Let me get a courtesy copy and have it
identified for the court reporter.

App.132a

(Spencer Exhibit Number 16 was marked for
identification)
Q. Can you identify what this document is?
[Transcript Excerpts; P. 4421
A. This is the dean's recommendation for my promotion to full professor.
Q. Okay. And so you've seen this before?
A. Yes.
Q. Okay. Was this—to the best of your knowledge,
was this document part of what was relied upon
to promote you to full professor?
A. Yes.
Q. Okay. Now, if you'll see there the responses to
number 2, it says, On the basis of your knowledge
rate the applicant in the following three categories.
For teaching, what is marked there?
A. Outstanding.
Q. Okay. What about scholarly research/creative
activities?
A. Noteworthy.
Q. Are you required as a professor at Virginia State
to engage in research?
A. We're not required. That's not the basis for our
compensation, but it is the basis for promotion
and tenure.
Q. Okay. And how many published articles.. .

App.133a

[Transcript Excerpts; P. 443]
. . . do you think that you have written in your
academic career?

A. To date, I have five. Two are in—are in review.
So if they're approved I'll have five peer-reviewed—
double blind peer-reviewed articles. I have three
peer-reviewed chapters. And I have three manuscripts, which are books.
Q. Okay. So—okay. So what about—to your knowledge in looking through—all right. So let's go
down to professional service. What is marked
there?
A. Outstanding.
Q. Okay. What about—we get to scholarly research
creative activities, what's marked there?
A. On my chairperson's—I don't have one for my
dean. For my chairperson's it was noteworthy;
but for the promotion and tenure committee the
departmental committee, teaching was outstanding, scholarly research was noteworthy, and professional service was outstanding.
Q. Okay. And with respect to what's. . .
[...
[Transcript Excerpts; P. 4441
. . . written under teaching, can you read for us

what—so who wrote this, to the best of your
knowledge?
A. I don't know. There should be several for my—
the university promotion and tenure committee I
rank outstanding in all categories. I don't see

App.134a

that here. The department committee ranked, and
then the chair ranked, and then the dean ranked.
Q. Okay. Can you read what's written there under
teaching in the document that I just gave to you?
A. That's 662?
Q. Correct.
A. Dr. Spencer's teaching is rated outstanding. I
attribute this assessment to her course evaluations,
which are all ranked nearly with—all ranked
nearly with nearly perfect.

1 ...

App.135a

DEPOSITION OF TERONE GREEN
—RELEVANT EXCERPTS
(AUGUST 9, 2017)
IN THE UNITED STATES DISTRICT COURT FOR
THE EASTERN DISTRICT OF VIRGINIA

ZOE SPENCER,
Plaintiff;
v.
VIRGINIA STATE UNIVERSITY ET AL.,
Defendants.
Case No. 3:16-CV-00989
[Transcript Excerpts; P. 84]
Q. Okay. Did the Board vote on whether or not to
reappoint Michael Shackleford as vice president
of Student Affairs?
MR. ROBINSON: Objection.
A. Not affirmed.
Q.

Okay. So the Board voted not to reappoint Michael
Shackleford as vice president of Student Affairs?
Can you answer verbally?

A. Correct. Yes.
MR. ROBINSON: Objection.

App.136a

[ . .1
[Transcript Exempts; P. 87]
A.

I never saw a letter of resignation. And if I—if I
recall state statute, if you resign, you have to
be—you have to be out of the position 1 for 30
days before you can come back. And so, no.
[ . 1

[Transcript Excerpts; P. 1141
Q. Okay. So were there concerns—you talked about
the fact that there were concerns about the
performance of Michael Shackleford as vice
president of Student Affairs. Were there any others
in addition to the fact that enrollment was going
to decline severely?

[Transcript Excerpts; P. 115]
MR. ROBINSON: Objection.
A. An allegation that was lodged against him that
was asked to be investigated.
That was—what kind of allegation?
A. An allegation that he had—
MR. ROBINSON: Objection.
MR. ROBINSON: Objection.
Q.

And that was of concern to the Board in terms of
reappointing Michael Shackleford as vice president
of Student Affairs?

MR. ROBINSON: Objection.
Q. Answer.

App.137a

A. That—yeah, a couple of board members Were
really concerned by that, and—and—yeah.
Q. Okay. Were there any other issues regarding
Michael Shackleford's performance as vice president of Student Affairs at the time that his
reappointment was considered by the Board in
2014?
MR. ROBINSON: Objection.
Q. Okay. What about Cortez Dial? Were there any
concerns about Cortez Dial's performance as chief
of staff?
MR. ROBINSON: Objection.
A. From my perspective, I had concerns because I
didn't really understand what he did. When you
look at a person, a vice president's portfolio, they
have several departments, departments under
them. When I got to the university, Dial had
athletics and a police department. And at the
salary that he was making, I would have expected
him to report, you know, as any other person, to
the Board, of issues within those areas.
[
[Transcript Excerpts; P. 120-121]
Q. So your understanding—so you believe that—your
understanding was that Cortez Dial, by the time
he was—by the end of his tenure as chief of staff
was just overseeing the Athletic Department; is
that right? That was all that was in his portfolio?
A. Yeah.

App.138a

Q. You were concerned that he was being overpaid
for the actual amount of responsibility that he
had as chief of staff, right?
MR. ROBINSON: Objection.
A. Yes, . . .
[Transcript Excerpts; P. 127-1281
. . . Cortez Dial did not have any job responsibilities
in the area of teaching, right?
MR. ROBINSON: Objection.
A. Let me go back. He couldn't have really had any
teaching responsibilities because he was working
on his doctoral degree. And in working on your
doctoral degree—I remember him saying that he
did a great deal of his work at Dr. Miller's former
institution. So I don't know how you can teach
and be chief of staff and work on a doctoral degree
within an eight-hour time frame.
Okay. Did you ever see anything that suggested
that Cortez Dial was a member of the faculty when
he was chief of staff at Virginia State 16 University?
MR. ROBINSON: Objection.
A. No.
Q. Okay. Did you understand that Cortez Dial's job
as chief of staff—that in his job of chief of staff
he had any research responsibilities in the area
of mass communications?
A. No. None. He didn't have any, no.

App.139a

Q. Was your understanding that he had any experience in mass communications, in that academic
discipline at all?
A. No, he didn't.
Q. Okay. Now, what about Michael Shackleford? In
his role as vice president of Student Affairs, did
Michael Shackleford have any teaching responsibilities, to the best of your knowledge?
A.

I think only after he left the position.

[Transcript Excerpts; P. 139-1401
. . . Do you remember any communication from
the dean of students that Cortez Dial be appointed
to the faculty of Mass Communications?
MR. ROBINSON: Objection.
A. No. The only recommendation to appoint Mr.
Dial and Dr. Shackleford came from the provost,
just strictly from the provost.
Q. When you say "the provost," you're talking about
Provost Weldon Hill?
A. Yes.
Q. Okay. What about Michael Shackleford? Did you
ever receive a recommendation from the chair of
the Department of Education that Michael Shackleford be appointed to that department as a
faculty member?
A. No.

App.140a

[Transcript Excerpts; P. 143-1441
. . . What about regarding their salaries; was there

any discussion among the Board of Visitors about
what salaries that Shackleford and/or Dial would
be appointed at?
MR. ROBINSON: Objection.
A. Weldon—Provost Hill said it was the policy to
take an individual who was a 12-month employee
and convert their salary to a 9-month, so they
would lose three months of the salary. So that's
how we came to the salaries for Cortez Dial and
Michael Shackleford. I asked for the policy on
that—and it was never produced—because I
wanted to understand the policy, because I subsequently learned that in some instances, by
Dial and Shackleford going into the department—
because they were not tenured; they were faculty
administrators. So if you were tenured, it was a
different—you were viewed differently. A faculty
administrator is just a faculty administrator
with no real rights or responsibilities.
And so by taking a faculty administrator and
putting them into a position, you know, in some
instances they were making more than the faculty.
[Transcript Excerpts; P. 1481
. . . And so when Shackleford went down, I think
he went from 150,000 to—

Q. . . . maybe?
A. Yeah, which was right at the dean-right at what
the dean was. And then it became apparent to me

App.141a

that that—and others started bringing up the issue
that this is—those two moves would cause considerable consternation among faculty members who
were qualified in their particular area, qualified
and tenured in that particular area, because
that's how you realize who—how people got tenure
and roles.
Q. So you had faculty members—the concern—so
you heard concern—so the concern from faculty
members would have been that they had worked
their entire careers to become tenured professors
in a certain subject area, right, and Shackleford
and Dial had not; and yet, Shackleford and Dial
were being paid salaries that were far more than
they were? Right?
A. (No verbal response.)
Q. Can you answer "yes" or "no"?
A. Yes.
. . .]
17'ranscript Excerpts; P. 153-1591

Q.

Okay. How did the subject of appointing them to
the faculty come up?

A. Weldon Hill; it was his recommendation that
they would be moved from their current positions
to staff—faculty positions.
Q. Was the department—was the Board of Visitors
told about what departments, what academic
departments they would be going into?
A. Yeah, I think so.

App.142a

Q. Okay. Did the Board of Visitors conduct any
review to see whether they were qualified for
faculty positions within those departments?
A.

No, just recommendation of the provost.

Q. And were those concerns that Dial did not have
any experience teaching in the area of mass
communications, and Shackleford did not have any
experiencing teaching in the area of doctoral
studies?
A. Based on what—you've got—
MR. ROBINSON: Objection.
A. . . . to remember when you are sitting there and
the provost, who's the number two in charge, gives
you the impression that they are qualified to go
in those areas, people tend to want to believe
what they hear. It's only when you really dig
deeper or folks bring other things to your attention
do you pay attention to that.
Q. And did anybody at any point bring it to your
attention that Shackleford and Dial might not be
qualified to hold those faculty positions?
MR. ROBINSON: Objection.
A. Multiple individuals.
Q. Okay. Do you remember, was Dean Kanu one of
those individuals?
MR. ROBINSON: Objection.
A. Yes.

App.143a

[Transcript Excerpts; P. 166]
Q.

Sure. But they were going to be faculty members?

A. Faculty.
Q. And they would have primarily teaching and
research responsibilities as faculty members?
A. Correct.
Q. Okay. And so did you ever—was the Board ever
made aware of issues regarding gender-based
inequities in salary?
MR. ROBINSON: Objection.
A. Yes.
[Transcript Excerpts; P. 167]
Q. So can you describe for me how the Board was
made aware of gender inequity issues as far as
faculty salaries?
A. Dr. Zoe Spencer—Dr. Zoe Spencer did a gender
and equity study, and I assumed it was commissioned by the university because of the individuals that were on that. She did that study, and it
was presented to the Board in closed session, the
results of it.
Q.

Sure. And if you could—I'll give you a copy of it.
[

[Transcript Excerpts; P. 179-181]
. . . you any concern that she was being retaliated
against for having provided that report to the
Board of Visitors regarding gender inequities in
salary?
MR. ROBINSON: Objection.

App.144a

Q. You can answer.
A. She felt that she was retaliated against, yes.
Q. When do you recall her voicing those concerns to
you?
A. Well, not related to necessarily gender equity, I
remember a call that I received around about
Christmastime. I was sitting in my kitchen; and
you know, if you know anything about Dr. Spencer,
she's pretty—she's a pretty strong individual,
strong, you know, person. And she called me
because she was very upset that apparently there
had been some salary pay that she was supposed
to get but did not 19 receive.
Q. At that time—so this would have been Christmas
of 2012?
A. I can't remember. It was Christmas, one of—I
don't know what year.
[
[Transcript Excerpts; P. 184-187]
. . So I called, after she explained to me that
she was promised—I think she'd done—she had
taught an adjunct class, and she was due her-due
a check December 18th or the 22nd, something like
that, around about that time. She didn't get it.
So I called to find out what had happened. I
spoke with Weldon Hill. Weldon explained to me,
well, the president closed the university down a
day early; and as a result of him closing the university down a day early, everybody went home.
You know, everything was just stopped.

App.145a

Nobody processed anything, and nothing was done.
And—and I'm like, but, "You know, Weldon, you
know, people are expecting, you know, their money
for Christmas." And I could relate to that because
I was in a similar situation. I had a consulting
contract—consulting that I was waiting to get
my money for, so I could relate to that, and he
was just not sympathetic to that.
Q. Did he say anything negative about Zoe Spencer
in that conversation?
MR. ROBINSON: Objection.
Q. You can answer.
A.

He said, "Fuck her."

Q. He said—referring to Zoe Spencer?
A. Yeah.
MR. ROBINSON: Objection.
MR. PETERS: Let me mark this as an 19 exhibit.
(Green Deposition Exhibit 3 was marked for
identification and is attached.)
MR. PETERS: Here's a courtesy copy.
Q. Does this document reflect your recollection that
that conversation took place in December 2012?
A. Yeah, based on your date.
Q. Okay. And so after that, did you hear-in addition
to that conversation, did you ever hear Mr. Hill
say anything else negative about Zoe Spencer?
MR. ROBINSON: Objection.
A. Yeah.

App.146a

Q. Okay. Can you describe when that happened?
A. We were talking about something, and he made
a statement about he should have never hired 15
the bitch.
[

.]

[Transcript Excerpts; P. 192-1931
. . . Okay. Was Weldon Hill, to the best of your
knowledge, aware that Zoe Spencer was contacting
board members and discussing gender equity
issues in pay?
A. Yeah, I suspect he was, . . .
[Transcript Excerpts; P. 193-1941
MR. PETERS: Let me introduce this as an exhibit.
(Green Deposition Exhibit 4 was marked for
identification and is attached.)
Q. So do you remember receiving this e-mail on or
about November 11, 2012?
A. It says I did.
Q. Okay. And was this part of the discussions that
Zoe Spencer was having with board members about
issues of gender equity in pay?
A. Uh-huh.
Q. Can you answer "yes"?
A. Yes.
[ . . .1
[Transcript Excerpts; P. 199-2011
. . . Was part of that reputation based on her
work with gender equity and salaries?

App.147a

A. I think it's just who she is. I think she's just an
advocate. She was—I think at one point she was
chair of the faculty senate, so she would, you
know, advocate issues as a result of that, yeah.
Weldon Hill on multiple occasions expressed
annoyance at her, right?
MR. ROBINSON: Objection to form.
Q. You can answer.
A. Yes.
MR. ROBINSON: Objection to form.
Q. You can answer.
A. Yes.
Q. Okay. We talked about the first time when he
said—after you made—you had a conversation
with Weldon Hill about her pay and getting her
pay on time, and you said that his attitude was—
he said to you, "Fuck her," basically.
MR. ROBINSON: Objection.
A. Yeah, "She can wait until they get back in January."
And I'm like, "Weldon, I mean, folks need their
money. This is December. Why would somebody—
why would you make people wait until January to
get paid?" I mean, that's just—that's just unconscionable.
Q. Okay. And so did Zoe Spencer ever express the
concern to you that Shackleford and Dial—that
their appointments were not in read, you know—
read that. So I just didn't rely on what she said.
I also read the sections that she cited.

App.148a

[
Q. Sure. And did you find that her concern about
Shackleford and Dial not meeting the SACS
guidelines to teach in their discipline had merit?
MR. ROBINSON: Objection.
A.

Based on what I read from SACS, yes.
[

.

[Transcript Excerpts; P. 262263I
. . . So to the best of your knowledge, did Cortez
Dial have a doctorate in the field of mass
communications?
A. No.
[Transcript Excerpts; P. 264-2651
Q. Right. And did you also—did Weldon-did Dr. Hill
ever say that Cortez Dial had teaching experience
specifically in mass communications or had any
graduate background in mass communications
besides his military—besides his military 19
experience?
A. No. You've just got to remember he just moved
him. He just moved him into an area.
Q. . . . Less than 30? And at any point did the
Board of Visitors review Dial or Shackleford's
resume to determine whether they had appropriate
qualifications to serve on the faculty?
A. No. I never saw any resumes.
Q. Okay. Did you see any other documents attesting
to their qualifications?
A.

No. It was just—it was just, you 10 know, verbal.

App.149a

[Transcript Excerpts; P. 269-2711

Q. Okay. And so later it came to your attention that
Cortez Dial might not have the requisite experience
to be considered qualified pursuant to the SACS
guidelines, right?
A. Yes.
Q. Okay. Did it—
A. After reading the SACS guidelines explanation.
MR. ROBINSON: Objection.
Q. Did it ever come to your attention that Michael
Shackleford's appointment might not have been
consistent with the SACS guidelines for appointment of faculty members?
MR. ROBINSON: Objection.
A. Only after you read the SACS, you know. I would
have assumed—I assumed because he had an Ed.
D. from Virginia Tech—I think it was from Virginia
Tech—and had been in the area, you know, in
academics for so long, he was qualified. You know,
SACS is very specific. You've got to really—you've
got to really understand that they're very specific
on credentials and degrees.
[
[Transczipt Excerpts; P. 2831
. . . Was there ever a time when a female administrator was—was there ever a time when the
Board decided to not to renew the contract of a
female administrator while you were on the
Board?

App.150a

A. There was a female administrator that we were
not going to renew; but she got wind that we
weren't going to renew her, and she resigned before
we did the nonrenewal.
[ . . .]
[Transcript Excerpts; P. 284-285]
Q. Ms. Whitaker. Was there ever a discussion about
Ms. Whitaker joining the faculty after she resigned
or was not going to be renewed as a resident
administrator?
MR. ROBINSON: Objection.
Q. You can answer.
A. No.
.]
[Transcript Excerpts; P. 291-293]
Q.

So the only two people who were given the option—
the only two administrators who had not previously
had tenure who were given the option of joining
the faculty during your time on the Board of
Visitors were Shackleford and Dial?

A. Correct.
Q.

There was no overarching practice of moving the
administrators who were not renewed to the
faculty, right?

MR. ROBINSON: Objection.
Q. You can answer.
A. I asked for that policy. I asked to see that policy,
and I was never shown it, I mean, because Weldon
gave the impression that that was standard. And

App.151a

so the university has various policies, so I wanted
to see the policy because you also wanted to
understand the justification for pay.
Q. And you were not provided with that?
A. No. Never.
[Transcript Excerpts; P. 293.2951
. . . Did you recall that Dr. Spencer's request for
pay equalization had merit? Did you believe that
it had merit?
A. Yeah, without a doubt. I mean, she was a tenured
faculty member.
MR. ROBINSON: Objection. Go ahead.
Q. You can answer.
A. She was a tenured—at the time I think she was
a tenured faculty member. She was publishing.
She was SACS-qualified in her area.
And yet, she sees somebody dropped in, making
a lot more money than her that technically,
according to SACS and others, were not qualified.
I mean, that's just reading.
Let's remove her from the equation. But if you
put Jane Smith in there and you read the rules,
I understand the complaint based on SACS.

.

SUPREME COURT
PRESS

